<html>
<title> - OVERSIGHT HEARING ON NO MORE STANDOFFS: PROTECTING FEDERAL EMPLOYEES AND ENDING THE CULTURE OF ANTI-GOVERNMENT ATTACKS AND ABUSE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


NO MORE STANDOFFS: PROTECTING FEDERAL EMPLOYEES AND ENDING THE CULTURE 
                 OF ANTI-GOVERNMENT ATTACKS AND ABUSE

=======================================================================

                           OVERSIGHT HEARING

                               BEFORE THE

       SUBCOMMITTEE ON NATIONAL PARKS, FORESTS, AND PUBLIC LANDS

                                 OF THE

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                       Tuesday, October 22, 2019

                               __________

                           Serial No. 116-26

                               __________

       Printed for the use of the Committee on Natural Resources

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

        Available via the World Wide Web: http://www.govinfo.gov
                                   or
          Committee address: http://naturalresources.house.gov


                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
38-270 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------


                     COMMITTEE ON NATURAL RESOURCES

                      RAUL M. GRIJALVA, AZ, Chair
                    DEBRA A. HAALAND, NM, Vice Chair
   GREGORIO KILILI CAMACHO SABLAN, CNMI, Vice Chair, Insular Affairs
               ROB BISHOP, UT, Ranking Republican Member

Grace F. Napolitano, CA              Don Young, AK
Jim Costa, CA                        Louie Gohmert, TX
Gregorio Kilili Camacho Sablan,      Doug Lamborn, CO
    CNMI                             Robert J. Wittman, VA
Jared Huffman, CA                    Tom McClintock, CA
Alan S. Lowenthal, CA                Paul A. Gosar, AZ
Ruben Gallego, AZ                    Paul Cook, CA
TJ Cox, CA                           Bruce Westerman, AR
Joe Neguse, CO                       Garret Graves, LA
Mike Levin, CA                       Jody B. Hice, GA
Debra A. Haaland, NM                 Aumua Amata Coleman Radewagen, AS
Jefferson Van Drew, NJ               Daniel Webster, FL
Joe Cunningham, SC                   Liz Cheney, WY
Nydia M. Velazquez, NY               Mike Johnson, LA
Diana DeGette, CO                    Jenniffer Gonzalez-Colon, PR
Wm. Lacy Clay, MO                    John R. Curtis, UT
Debbie Dingell, MI                   Kevin Hern, OK
Anthony G. Brown, MD                 Russ Fulcher, ID
A. Donald McEachin, VA
Darren Soto, FL
Ed Case, HI
Steven Horsford, NV
Michael F. Q. San Nicolas, GU
Matt Cartwright, PA
Paul Tonko, NY
Vacancy

                     David Watkins, Chief of Staff
                        Sarah Lim, Chief Counsel
                Parish Braden, Republican Staff Director
                   http://naturalresources.house.gov
                                 
                                 
                                 ------                                

       SUBCOMMITTEE ON NATIONAL PARKS, FORESTS, AND PUBLIC LANDS

                      DEBRA A. HAALAND, NM, Chair
                DON YOUNG, AK, Ranking Republican Member

Joe Neguse, CO                       Louie Gohmert, TX
Diana DeGette, CO                    Tom McClintock, CA
Debbie Dingell, MI                   Paul Cook, CA
Steven Horsford, NV                  Bruce Westerman, AR
Jared Huffman, CA                    Jody B. Hice, GA
Ruben Gallego, AZ                    Daniel Webster, FL
Alan S. Lowenthal, CA                John R. Curtis, UT
Ed Case, HI                          Russ Fulcher, ID
Paul Tonko, NY                       Rob Bishop, UT, ex officio
Vacancy
Raul M. Grijalva, AZ, ex officio

                                
                                
                                ------                                
                                
                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, October 22, 2019........................     1

Statement of Members:
    Curtis, Hon. John R., a Representative in Congress from the 
      State of Utah..............................................     4
        Prepared statement of....................................     5
    Haaland, Hon. Debra A., a Representative in Congress from the 
      State of New Mexico........................................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Fennell, Anne-Marie, Director, Natural Resources and 
      Environment Team, U.S. Government Accountability Office, 
      Washington, DC.............................................    17
        Prepared statement of....................................    18
    Nichols, Dan, Rancher and Former County Commissioner, 
      Diamond, Oregon............................................     6
        Prepared statement of....................................     8
    Tubb, Katie, Senior Policy Analyst, The Heritage Foundation, 
      Washington, DC.............................................    23
        Prepared statement of....................................    25
    Walker, Dr. Peter A., Department of Geography, University of 
      Oregon, Eugene, Oregon.....................................     8
        Prepared statement of....................................    10

Additional Materials Submitted for the Record:
    List of documents submitted for the record retained in the 
      Committee's official files.................................    38



 
 OVERSIGHT HEARING ON NO MORE STANDOFFS: PROTECTING FEDERAL EMPLOYEES 
      AND ENDING THE CULTURE OF ANTI-GOVERNMENT ATTACKS AND ABUSE

                              ----------                              


                       Tuesday, October 22, 2019

                     U.S. House of Representatives

       Subcommittee on National Parks, Forests, and Public Lands

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 2 p.m., in 
room 1324, Longworth House Office Building, Hon. Debra A. 
Haaland [Chairwoman of the Subcommittee] presiding.
    Present: Representatives Haaland, Lowenthal, Tonko, 
Grijalva; Webster, and Curtis.

    Ms. Haaland. The Subcommittee on National Parks, Forests, 
and Public Lands will now come to order. The Subcommittee is 
meeting today to hear testimony on anti-public lands extremism.
    Under Committee Rule 4(f), any oral opening statements at 
hearings are limited to the Chair and the Ranking Minority 
Member. Therefore, I ask unanimous consent that all other 
Members' opening statements be made part of the hearing record, 
if they are submitted to the Clerk by 5 p.m. today.

    Hearing no objection, so ordered.

  STATEMENT OF THE HON. DEBRA A. HAALAND, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW MEXICO

    Ms. Haaland. Thank you all for being here today for the 
Subcommittee on National Parks, Forests, and Public Lands 
hearing on combating anti-public lands extremism.
    We are here today, in part, to review the results of a 
recent Government Accountability Office report detailing the 
impacts of anti-government extremism on public land managers 
and Federal facilities. As we will hear, that report found some 
shocking details about the threats these Federal employees face 
just doing their jobs.
    Federal land managers and law enforcement personnel have 
been followed around in stores, had their homes staked out, and 
have even faced attempted murder at the hands of those who 
promote anti-government ideologies. I hope that we can all 
agree that this is unacceptable. These people are hardworking 
public servants employed by the Federal Government. No one 
should face fear and harassment in their place of work or in 
their communities.
    I also think it is important that we keep the larger 
context of these incidents in mind, because these extremist 
ideologies do not develop in a vacuum. Anti-government rhetoric 
more frequently being adopted by officials in positions of 
power is being used as a weapon against our public lands and 
the public servants who manage them. Attempts to push this 
ideology into the political mainstream has a very real impact 
on people's lives.

    As GAO found, ``Some field unit employees said that in 
certain circumstances, they consider receiving threats a normal 
part of their job. . . . Officials described being threatened 
while off duty, such as being harassed in local stores or being 
monitored at their home, which officials said in some cases 
they did not report because it was a common occurrence.''
    If we could turn to the screen, we will see a handful of 
statements public officials have made in recent years.

    [Slide.]

    Ms. Haaland. ``What Senator [Harry] Reid may call domestic 
terrorists, I call Patriots,'' former Senator Dean Heller of 
Nevada on the 2014 armed Bundy militia standoff in Bunkerville, 
Nevada.

    ``The BLM has become a bureaucratic agency of--basically--
terrorism. So, at what point do we band together as elected 
officials and say, `Enough is enough of the BLM?' '' And that 
was from State Representative Michele Fiore of Nevada.

    ``The federal government, the BLM, the Forest Service, the 
FBI, the DEA, any of those guys, they're not elected. Those 
other entities, they answer to me.'' Beaver County (Utah) 
Sheriff Cameron Noel.

    ``You, the people of Nevada, not Washington bureaucrats, 
should be in charge of your own land. I will fight day and 
night to return full control of Nevada's lands to its rightful 
owners. Its citizens.'' And that was from Senator Ted Cruz of 
Texas.

    This rhetoric often turns into violence. In 2012, Utah 
Governor Gary Herbert signed the Utah Transfer of Public Lands 
Act, which required Federal agencies to cede ownership of most 
Federal land to state control after 2014.

    A researcher at the University of California, San Diego 
found that in the year after Utah and other western state 
legislatures made their land transfer demands, those states saw 
a nearly 11 percent increase in violence directed at Federal 
public lands employees.

    In that context, it is particularly disappointing to see my 
Republican colleagues invite a witness today with little 
experience on the issues we are here to discuss, and who has 
written favorably about giving away Federal land to state and 
private control.

    Former BLM Director, Bob Abbey, said in 2014, ``The 
political rhetoric today does lead to animosity and increased 
tension, and there is a belief because of that rhetoric that it 
is OK to do certain things outside the law, and some people 
believe that they are going to get away with it.''

    Today, I hope we can examine this rhetoric and the danger 
it creates, so that we can consider how to protect public 
employees, promote collaboration, and end the culture of 
threats and violence.

    [The prepared statement of Ms. Haaland follows:]
Prepared Statement of the Hon. Debra A. Haaland, Chair, Subcommittee on 
               National Parks, Forests, and Public Lands
    Thank you all for being here today for the Subcommittee on National 
Parks, Forests, and Public Lands hearing on combating anti-public lands 
extremism.
    We're here today, in part, to review the results of a recent 
Government Accountability Office report detailing the impacts of anti-
government extremism on public land managers and Federal facilities. As 
we'll hear, that report found some shocking details about the threats 
these Federal employees face just for doing their jobs.
    Federal land managers and law enforcement personnel have been 
followed around in stores, had their homes staked out, and have even 
faced attempted murder at the hands of those who promote anti-
government ideologies. I hope that we can all agree that this is 
unacceptable. These people are hard-working public servants employed by 
the Federal Government. No one should face fear and harassment in their 
place of work or in their communities.
    I also think it is important that we keep the larger context of 
these incidents in mind, because these extremist ideologies do not 
develop in a vacuum. Anti-government rhetoric more frequently being 
adopted by officials in positions of power is being used as a weapon 
against our public lands and the public servants who manage them. 
Attempts to push this ideology into the political mainstream has a very 
real impact on people's lives.
    As GAO found, ``Some field unit employees said that in certain 
circumstances, they consider receiving threats a normal part of their 
job . . . Officials described being threatened while off-duty, such as 
by being harassed in local stores or being monitored at their home, 
which officials said in some cases they did not report because it was a 
common occurrence.''

    If we could turn to the screen, we'll see a handful of statements 
public officials have made in recent years:

    <bullet> ``What Senator [Harry] Reid may call domestic terrorists, 
            I call Patriots.''--Former U.S. Senator Dean Heller (R-
            Nev.), on the 2014 armed Bundy militia standoff in 
            Bunkerville, Nevada.

    <bullet> ``The BLM has become a bureaucratic agency of--basically--
            terrorism. So, at what point do we band together as elected 
            officials, and say, `Enough is enough of the BLM?' ''--
            State Representative Michele Fiore (R-Nev.).

    <bullet> ``The federal government, the BLM, the Forest Service, the 
            FBI, the DEA, any of those guys, they're not elected. Those 
            other entities, they answer to me.''--Beaver County (Utah) 
            Sheriff Cameron Noel.

    <bullet> '`You, the people of Nevada, not Washington bureaucrats, 
            should be in charge of your own land . . . I will fight day 
            and night to return full control of Nevada's lands to its 
            rightful owners. Its citizens.''--U.S. Senator Ted Cruz (R-
            Texas).

    This rhetoric often turns into violence. In 2012, Utah Gov. Gary 
Herbert signed the Utah Transfer of Public Lands Act, which 
``required'' Federal agencies to cede ownership of most Federal land to 
state control after 2014.
    A researcher at the University of California, San Diego, found that 
in the year after Utah and other Western state legislatures made their 
land-transfer demands, those states saw a nearly 11 percent increase in 
violence directed at Federal public lands employees.
    In that context, it is particularly disappointing to see my 
Republican colleagues invite a witness today with little experience on 
the issues we're here to discuss and who has written favorably about 
giving away Federal land to state and private control.
    Former BLM director Bob Abbey said in 2014, ``the political 
rhetoric today does lead to animosity and increased tension, and there 
is a belief because of that rhetoric that it's OK to do certain things 
outside the law and some people believe that they're going to get away 
with it.''
    Today, I hope we can examine this rhetoric and the danger it 
creates, so that we can consider how to protect public employees, 
promote collaboration, and end the culture of threats and violence.

                                 ______
                                 

    Ms. Haaland. With that, I would like to recognize Ranking 
Member Curtis for his opening remarks.

   STATEMENT OF THE HON. JOHN R. CURTIS, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF UTAH

    Mr. Curtis. Thank you, Madam Chair. Absolutely no one in 
this room, on either side of the aisle, condones violence or 
threats against Federal employees. It is unfortunate that I 
feel I need to even make that statement.
    Our boots on the ground are often in difficult positions. 
They may have to enforce unpopular laws and regulations that 
have a great impact on local communities and people's 
livelihoods. Their safety should be, and is, of the utmost 
importance.
    While I am supportive of the practical recommendations made 
in the GAO's report we are looking at today, I am concerned 
that the title and narrow focus of this hearing may be 
misleading. I take issue with the assertion made that there is 
a widespread problem of anti-government threats and abuse 
occurring in the West. Being from the West and representing a 
state with a high percentage of public land, I would like to 
set the record straight.
    Calling for local ownership and control of public lands 
does not embody an attack on the Federal Government. As a 
matter of fact, many of my constituents feel just the opposite. 
The vast majority of my constituents impacted by the Federal 
Government's public lands management decisions are hardworking 
taxpayers raising families and contributing to their 
communities. They love the beautiful public lands that surround 
them, and want to be good stewards of them and part of the 
decision-making process. This does not make them bad people. 
They are not dangerous or threatening to Federal land managers 
in the field. In fact, I frequently hear how much they 
appreciate and work well with the local agents of these Federal 
agencies.
    Landowners and users who disagree with specific management 
decisions should not be made to feel that somehow they will be 
placed on a government watch list of potential threats. 
Villainizing Westerners, and those who disagree with management 
decisions, does nothing to build the bridge of trust and 
cooperation that is vital to proper stewardship of the land. 
And, as is the case with most of our politics, finger pointing 
and divisiveness is counterproductive in the long run.
    We will hear from the GAO witness today regarding the 
report that the Full Committee Chairman asked them to compile, 
which looks at the progress that the BLM, Forest Service, Fish 
and Wildlife Service, and National Park Service have all made 
in recent years to bring their human-occupied facilities into 
compliance with post-9/11 Federal security standards.
    This report, while important to consider, only took into 
account 4 years' worth of data of recorded threats among the 
four land management agencies, which each had different and 
often inconsistent methods of recording. There also does not 
appear to be a way to differentiate between the most serious 
threats of violence and incidents as minor as a parking ticket.
    I believe Republicans on this Committee largely support the 
recommendations made in the GAO report for the agencies to 
continue to make progress in taking common-sense efforts to 
secure Federal facilities. However, nothing in the report makes 
any mention of the existence of a ``culture of anti-government 
attack and abuse,'' which is the title of this hearing.
    My hope is that, through the testimony of the witnesses 
here today, we can all learn the powerful lesson that the vast 
majority of citizens are not like those in the rare, high-
profile, headline-grabbing incidents that will be showcased 
today. My constituents do not wish to have conflict, and 
naturally seek compromise and cooperation from their 
government.
    I hope to hear examples today of how Federal land managers 
and local citizens have worked to listen to each other, seek 
mutual understanding, and come up with collaborative, on-the-
ground solutions which netted the most positive outcome for all 
concerned.
    As a committee, we should be promoting and fostering more 
of these cooperative and collaborative efforts, which will do 
far more to facilitate safety than spending even tens of 
millions of dollars to create hardened, secure fortresses.
    With that, Madam Chair, I would like to thank the witnesses 
for being here today. I look forward to their testimony, and I 
yield my time.

    [The prepared statement of Mr. Curtis follows:]
  Prepared Statement of the Hon. John R. Curtis, a Representative in 
                    Congress from the State of Utah
    Thank you, Madam Chair.
    Absolutely no one in this room, on either side of the aisle, 
condones violence or threats against Federal employees--unfortunately, 
I feel the need to make that perfectly clear.
    Our boots-on-the-ground are often in difficult positions. They may 
have to enforce unpopular laws and regulations that have a great impact 
on local communities and people's livelihoods. Their safety should be, 
and is, of the utmost importance.
    While I am supportive of the practical recommendations made in the 
GAO's report we are looking at today, I am concerned that the title and 
narrow focus of this hearing may be misleading. I take issue with the 
assertion made that there is a widespread problem of anti-government 
threats and abuse occurring in the West. Being from the West and 
representing a state with a high percentage of public land, I would 
like to set the record straight.
    The vast majority of my constituents impacted by the Federal 
Government's public lands management decisions are hard-working 
taxpayers raising families and contributing to their communities. They 
love the beautiful public lands that surround them and want to be good 
stewards of them and part of the decision-making process. They are not 
dangerous or threatening to Federal land managers in the field.
    Landowners and users who disagree with specific management 
decisions should not be made to feel that somehow they will be placed 
on a government ``watch list'' of potential threats. Villainizing 
Westerners, and those who disagree with management decisions, does 
nothing to build the bridges of trust and cooperation that is vital to 
proper stewardship of the land. As is the case with most of politics, 
finger pointing, and divisiveness is counter-productive in the long-
run.
    We will hear from the GAO witness today regarding the report that 
the Full Committee Chairman asked them to compile, which looks at the 
progress that the BLM, Forest Service, Fish and Wildlife Service, and 
the National Park Service have all made in recent years to bring their 
human-occupied facilities into compliance with post 9/11 Federal 
security standards.
    This report, while important to consider, only took into account 4 
years' worth of data of recorded ``threats'' among the four land 
management agencies which each had different, and often inconsistent, 
methods of recording. There also does not appear to be a way to 
differentiate between the most serious threats of violence and 
incidents as minor as a parking ticket.
    I believe Republicans on this Committee largely support the 
recommendations made in the GAO report for the agencies to continue to 
make progress in taking common-sense efforts to secure Federal 
facilities. However, nothing in the report makes any mention of the 
existence of a ``culture of anti-government attack and abuse,'' which 
is the title of this hearing.
    My hope is that through the testimony of the witnesses here today, 
we can all learn the powerful lesson that the vast majority of citizens 
are not like those in the rare, high-profile, headline-grabbing 
incidents that will be showcased today. My constituents do not wish to 
have conflict, and naturally seek compromise and cooperation from their 
government.
    I hope to hear examples today of how Federal land managers and 
local citizens have worked to listen to each other, seek mutual 
understanding, and come up with collaborative on-the-ground solutions 
which netted the most positive outcome for all concerned.
    As a Committee, we should be promoting and fostering more of these 
cooperative and collaborative efforts, which will do far more to 
facilitate safety than spending even tens of millions of dollars to 
create hardened, secure fortresses.
    With that, Madam Chair, I would like to thank the witnesses for 
being here today and look forward to their testimony.

                                 ______
                                 

    Ms. Haaland. Thank you, Mr. Curtis. Now I would like to 
turn to our witness panel.
    Under our Committee Rules, oral statements are limited to 5 
minutes, but you may submit a longer statement for the record, 
if you choose.
    The lights in front of you will turn yellow when there is 1 
minute left, and red when time has expired.
    After the witnesses have testified, Members will be given 
the opportunity to ask questions.
    The Chair now recognizes Mr. Dan Nichols, rancher and 
former Harney County Commissioner.
    Mr. Nichols, you have 5 minutes.

      STATEMENT OF DAN NICHOLS, RANCHER AND FORMER COUNTY 
                 COMMISSIONER, DIAMOND, OREGON

    Mr. Nichols. Thank you for the opportunity to speak to you 
today. My name is Dan Nichols, and I am a self-employed rancher 
of 41 years, a BLM permittee, a past permittee on the Malheur 
National Wildlife Refuge, a five-term retired county 
commissioner, a High Desert Partnership board member, and a 
participant in three of the five ongoing collaborative 
initiatives in our community.
    The economy of Harney County is natural resource-based, 
with a reliance on the multiple-use concept of public lands 
administered by the U.S. Forest Service, the BLM, and the 
Malheur National Wildlife Refuge. Harney County lies in the 
southeast corner of Oregon, and is 75 percent federally and 
state owned. It has a land mass of 10,120 square miles, larger 
than six West Coast states, but only has a population of 7,380 
people, of which 5,200 are registered to vote.
    A quick look at an Oregon State map and one would 
incorrectly assume that the area is basically uninhabited. My 
comments to you today come from this perspective.
    Real Americans, especially in the largely federally owned 
and managed 11 western states, are not being listened to, much 
less heard. Opinions and desires of the populace residing well 
outside of rural communities are politically driving issues 
that result in legitimate grievances with Federal land 
management policies. Much of what is often described as anti-
government is really coming from a place of feeling excluded, 
or being on the losing end of unbalanced natural resource 
management.
    In the course of doing their jobs, Federal employees become 
the local messengers of new policies and regulations, resulting 
in them becoming the recipients of the frustration and anger of 
the people that are not being listened to.
    Our community has issues of concern with Federal land 
management. We are not unique in that regard. What does make us 
unique is the manner in which issues of potential dissension 
and polarization are resolved. A culture of collaboration has 
been established in Harney County that enables a diversity of 
opinions to be respectfully and collectively considered. A 
positive attribute of the process has been working directly 
with the Federal employees in our community. Through that 
interaction, the community has gained an appreciation for them 
as professionals, individuals, and contributing members in our 
community.
    Collaboration also provides a venue for discussion of 
issues with the broader community beyond Harney County. For us, 
the term ``community'' includes those with an interest and a 
commitment to participate, including stakeholders from outside 
the local area who care about issues in ways that we may not 
always appreciate. It is necessary to have them at the table, 
as well.
    Because the collaborative process gives everyone an 
opportunity to speak and listen, we learn and better understand 
each other's views. It is a setting where real voices are heard 
and understood by those from areas that are the source of many 
of the problematic issues.
    Collectively, through collaborative efforts, Harney County 
residents have found the ability to meet our interests. 
Following are some examples: the Steens Mountain Cooperative 
Management and Protection Act of 2000, which was sponsored and 
written by Congressman Greg Walden; the recent Malheur National 
Wildlife Refuge Comprehensive Plan; and the Harney County 
Wildfire Collaborative and Harney County Wetlands Initiative.
    The culture of collaboration has changed the ways we deal 
with complex and controversial issues in Harney County. Real 
benefits have been achieved for the local community, the 
Federal agencies, and the natural resources we all care about, 
urban and rural alike. We can all learn from the lessons of 
people that are successfully bridging divides.
    Our experience can provide the opportunity for Congress to 
develop a format for a much-needed larger discussion. I ask for 
your support of a larger collaborative to produce meaningful 
progress in addressing legitimate grievances and concerns of 
the American public.
    Collaboration is recognized as a successful approach to 
issue resolution in Harney County, the state of Oregon, and 
needs to be implemented on a national level, as well.
    Thank you, and I look forward to any questions you may 
have.

    [The prepared statement of Mr. Nichols follows:]
     Prepared Statement of Dan Nichols, Rancher and Former County 
                              Commissioner
    Our nation is divided. Divisions exist between urban and rural 
America and within Congress. Simplistic red state/blue state depictions 
of this division only serve to aggregate conflict, reinforce 
polarization and harden lines that prevent collaborative and 
constructive problem solving in our communities. These divisions 
manifest themselves on the ground in many ways, including conflicts 
over natural resource management and militant anti-government protests 
like the occupation of the Malheur National Wildlife Refuge. We can and 
must do better.
    Being an individual with strong opinions I have come to appreciate 
that much can be gained by understanding and addressing the opinions of 
others. There are lessons to be learned from the armed occupation of 
the Malheur National Wildlife Refuge, as well as Harney Counties 
experiences with the government's management of public lands resources. 
It is important to note that the majority of ranchers in Harney County 
did not support armed occupation of the Refuge. But at the same time, 
there are legitimate grievances with Federal land management policies. 
Without a forum in which to air and address these concerns--and a fair, 
collaborative process by which to resolve them--we continue to push 
more people toward the hostile, unacceptable approaches adopted by 
individuals such as the Bundys. Much of what is often described as 
being ``antigovernment'' is really coming from a place of feeling 
excluded or on the losing end of unbalanced natural resource 
management.
    There are many examples here in Harney County where the ranching 
and farming community has come together with multiple stakeholders--
including the environmental community as well as state and Federal 
agencies--to find common ground without vilifying each other. In fact, 
the common ground comes from learning to better understand one another. 
Oregon was ground zero for the spotted owl wars and the resulting ESA 
listing that caused irreparable damage to local communities and divided 
citizens. But more recently, the people of Harney County drew from this 
negative experience and worked with government and a diversity of 
interests to develop a Candidate Conservation Agreement with Assurances 
that prevented the need for a similar outcome for Greater sage-grouse, 
which resulted in a 2015 decision to not list that bird.

    Collectively, through collaborative efforts, Harney County 
residents have found the ability to meet our interests, while 
addressing the interests of the larger community of stakeholders, in 
the following examples:

    <bullet> The Steens Mountain Cooperative Management and Protection 
            Act of 2000

    <bullet> The Malheur National Wildlife Refuge Comprehensive 
            Conservation Plan

    <bullet> The Harney County Wildfire Collaborative

    <bullet> Eastside Forest Collaboratives including the Harney County 
            Restoration Collaborative

    This Subcommittee should not pass up the chance to learn from these 
lessons of people bridging divides. It is an opportunity for Congress 
to develop a format for a much needed ``larger discussion.'' I ask for 
your support of a larger collaborative that will produce meaningful 
progress in addressing legitimate grievances. This is recognized as a 
successful approach to issue and conflict resolution in Harney County, 
the state of Oregon and should be on a national level as well.

                                 ______
                                 

    Ms. Haaland. Thank you very much, Mr. Nichols.
    The Chair now recognizes Professor Peter A. Walker, 
Professor of Geography at the University of Oregon.
    You have 5 minutes, sir.

  STATEMENT OF DR. PETER A. WALKER, DEPARTMENT OF GEOGRAPHY, 
              UNIVERSITY OF OREGON, EUGENE, OREGON

    Dr. Walker. My name is Peter Walker. I am a professor of 
Geography and Environmental Studies at the University of 
Oregon.
    I personally observed the 2016 armed occupation of the 
Malheur National Wildlife Refuge in Harney County, Oregon. 
After the occupation, I conducted research in Harney County for 
more than 2 years, including over 100 in-depth interviews with 
individuals representing all parts of the community. My 
observations are recorded in my book, ``Sagebrush 
Collaboration: How Harney County Defeated the Takeover of the 
Malheur National Wildlife Refuge.''
    A lot can be learned from the Malheur Refuge occupation for 
preventing such incidents, and for safeguarding Federal 
employees and enabling them to work constructively in rural 
communities.
    The great majority in Harney County opposed the Malheur 
occupation, and rejected the militants' plan to launch an anti-
Federal Government revolution from Harney County. I use the 
word ``militants'' because they used armed force and military-
style tactics to achieve a radical political goal. The 
situation was explosive, and almost certainly, if the community 
had heeded the calls of the militants, lives would have been 
lost.
    Harney County rejected the militants' call to revolution, 
in large part because the community had invested for decades in 
building collaborative approaches to solving precisely the kind 
of resource management issues the militants said could only be 
resolved through armed force.
    In the past, there had been a lot of hostility between the 
community and Federal agencies. But by the end of the 1990s, 
Harney County was tired of fighting, and especially tired of 
litigation. The existing system was failing to produce outcomes 
that almost anyone wanted, and when people knew that 
regulations would be coming, they wanted to get ahead of the 
process and make sure local voices would be heard.
    Farmers, ranchers, environmentalists, tribes, and Federal, 
state, and county workers intentionally built a culture of 
collaboration. The community bet that better solutions could be 
found by building relationships and really listening to each 
other, humanizing those with whom they might see things 
differently. For decades, over one-on-one phone calls and cups 
of coffee at kitchen tables, the community created their own 
ways to solve problems. When outside militants proposed violent 
confrontation, the community had a better way.
    Federal employees were central to this history. Ironically, 
the outside militants had no idea that Harney County was 
recognized nationally as something of a poster child for 
collaborative approaches, including building positive 
relationships with Federal workers. The militants believed by 
vilifying and harassing Federal employees, they would rally 
support for their cause. The militants' leader later said that 
he never met a Bureau of Land Management--or, by implication, 
any Federal--employee who is a ``good person.''
    By 2016, most people in Harney County just didn't see it 
that way. Through collaboration, Federal employees were 
contributing to better problem-solving, in large part by making 
themselves more integral parts of the community and, above all, 
by listening. No longer just uniforms and badges, Federal 
employees were friends and members of the community. And Harney 
County does not like members of the community being harassed.
    When the Malheur occupation ended, ranchers with allotments 
on the Malheur National Wildlife Refuge held a dinner to honor 
the U.S. Fish and Wildlife Service employees who had borne much 
of the harassment from the outside militants, to reaffirm that 
the Federal workers are valued members of the community.
    As a nation, we are enormously fortunate that, by chance, 
the militants chose Harney County. The community literally told 
the militants to go home. We should see the relatively peaceful 
outcome of the Malheur occupation as hopeful evidence that 
conflicts between rural communities and Federal agencies can be 
minimized, and, in at least some cases, win-win solutions can 
be found that defy the divisive culture that afflicts our 
Nation today.
    But Harney County is much like many other places. The 
experience of collaboration in Harney County demonstrates 
principles that can be applied in other rural communities. That 
is my most important message. In Harney County, I saw that 
endless division and conflict do not need to define who we are 
as a nation, and how Federal employees work in our communities. 
There are better ways. America can do better, and Harney County 
proved it. Thank you.

    [The prepared statement of Mr. Walker follows:]
 Prepared Statement of Dr. Peter A. Walker, Professor of Geography and 
              Environmental Studies, University of Oregon
    My name is Peter Walker, a professor of Geography and Environmental 
Studies at the University of Oregon. I personally observed the 2016 
armed occupation of the Malheur National Wildlife Refuge in Harney 
County, Oregon. After the occupation I conducted research in Harney 
County for more than 2 years, including over 100 in-depth interviews 
with individuals representing all parts of the community. My 
observations are recorded in my book, Sagebrush Collaboration: How 
Harney County Defeated the Takeover of the Malheur National Wildlife 
Refuge.
    A lot can be learned from the Malheur Refuge occupation for 
preventing such incidents, and for safeguarding Federal employees and 
enabling them to work constructively in rural communities.
    The great majority in Harney County opposed the Malheur occupation 
and rejected the militants' plan to launch an anti-Federal Government 
revolution from Harney County. (I use the word ``militants'' because 
they used armed force and military-style tactics to achieve a radical 
political goal.) The situation was explosive, and if the community had 
heeded the militants' call, the Malheur occupation almost certainly 
would have ended with many lives lost.
    Harney County rejected the militants' call to revolution in large 
part because the community had invested for decades in building 
collaborative approaches to solving precisely the kind of resource 
management issues the militants' said could only be resolved through 
armed force. In the past there had been a lot of hostility between the 
community and Federal agencies. But by the end of the 1990s, Harney 
County was tired of fighting--and especially tired of litigation. The 
existing system was failing to produce outcomes that almost anyone 
wanted; and when people knew regulations would be coming, they wanted 
to get ahead of the process and make sure local voices would be heard. 
Farmers, ranchers, environmentalists, tribes, and Federal, state and 
county workers intentionally built a culture of collaboration. The 
community bet that better solutions could be found by building 
relationships and really listening to each other--humanizing those with 
whom they might see things differently. For decades, over countless 
one-on-one phone calls and cups of coffee at kitchen tables, the 
community created their own ways to solve problems. When outside 
militants proposed violent confrontation, the community had a better 
way.
    Federal employees were central in this story. Ironically, the 
outside militants had no idea Harney County was recognized nationally 
as something of a poster child for collaborative approaches, including 
building positive relationships with Federal workers. The militants 
believed vilifying and harassing Federal employees would rally local 
support for their cause. The militants' leader later said he never met 
a Bureau of Land Management (or, by implication, any Federal) employee 
who is a ``good person.'' By 2016, most people in Harney County just 
did not see it that way. Through collaboration, Federal employees were 
contributing to better problem-solving in large part by making 
themselves more integral parts of the community, and by listening. No 
longer just uniforms and badges, Federal employees were friends and 
members of the community. And Harney County does not like members of 
the community being harassed. When the Malheur occupation ended, 
ranchers with allotments on the Malheur Refuge held a dinner to honor 
the U.S. Fish & Wildlife Service employees who had borne much of the 
harassment from outside militants, to reaffirm that the Federal workers 
are valued members of the community.
    As a nation we are enormously fortunate that by chance the 
militants chose Harney County. The community literally told the 
militants to ``Go home.'' We should see the relatively peaceful outcome 
of the Malheur occupation as hopeful evidence that conflicts between 
rural communities and Federal agencies can be minimized, and in at 
least some cases win-win solutions can be found that defy the divisive 
culture that afflicts our nation today. But Harney County is much like 
many other places; the experience of collaboration in Harney County 
demonstrates principles that can be applied in other rural communities.
    That is my most important message: in Harney County I saw that 
endless division and conflict do not have to define who we are as a 
nation and how Federal employees work in our communities. There are 
other ways. America can do better. And Harney County proved it. Thank 
you.
                               background
    This testimony addresses the armed occupation of the Malheur 
National Wildlife Refuge in Harney County, Oregon, by armed anti-
government militants in January and February 2016. On January 2, 2016, 
somewhere between 10 and 20 armed individuals seized the wildlife 
refuge and called on social media for ``thousands'' more to come, with 
their arms. At the peak, only an estimated 50 individuals occupied the 
refuge, though several hundred supporters from outside the area stayed 
in motels and other facilities in nearby Burns, Hines, and other 
locations. Although the occupiers claimed that their actions were a 
``peaceful protest,'' they also stated their readiness to die, and that 
they would respond with armed force if law enforcement attempted to 
intervene. For 24 days, law enforcement took no direct action against 
the occupiers (the wildlife refuge is in a remote area where the 
occupation represented little or no threat to human life). On January 
26, 2016, most of the main leaders of the occupation were arrested 
while attempting to travel in two private vehicles from the wildlife 
refuge to the town of John Day, Oregon, in nearby Grant County. One 
militant, after attempting to flee a traffic stop and being stopped at 
a roadblock, was shot and killed by Oregon State Police after failing 
to comply with police orders and then reaching for a handgun. All but 
four of the remaining occupiers fled the wildlife refuge in the 
following hours, with the last holdouts surrendering on February 11, 
2016.
    The militants publicly stated that the purpose of their takeover 
was to secure the release of two local ranchers from imprisonment for 
arson on Federal land, and to ``give back'' the refuge land to the 
``rightful owners,'' who they identified as ``ranchers, loggers, and 
miners'' (notably excluding the local Burns Paiute Tribe, who have the 
only historically irrefutable claim to being the original ``owners'' of 
the land that makes up the refuge). The takeover attracted worldwide 
media attention. Outside the media spotlight, however, the militants 
acknowledged a more ambitious goal: to make Harney County the first 
``federal-free'' county in the American West, serving as an example for 
other communities that they hoped would follow Harney County's lead. 
The militants based their political ideology on a religiously inspired 
interpretation of the United States Constitution, in which the Federal 
Government is seen to have little or no jurisdiction in states outside 
Washington, DC. In the militants' view, the highest authority in the 
land is the county sheriff--whose authority supersedes even the 
President of the United States. This interpretation is similar to the 
anti-Federal posse comitatus movement of the 1970s, as well as the 
modern ``sovereign citizen'' movement, although the leaders of the 
occupation attributed their inspiration to Biblical interpretation. The 
armed seizure of the Malheur National Wildlife Refuge, along with the 
2014 armed standoff against Federal employees and law enforcement at 
Bunkerville, Nevada (led by the same Nevada-based family) represented a 
major, armed escalation of the anti-Federal public lands ``sagebrush 
rebellion'' of the 1970s and 1980s.
    The militants' plan to overthrow the Federal Government hinged on 
persuading local ranchers to symbolically repudiate their Federal 
grazing contracts, followed by a declaration that the ranchers are the 
true owners of the land. The militants promised that seized Federal 
lands would be ``defended'' by armed ``Patriots'' (referred to locally 
as ``the militia''). The occupiers arranged a ceremony, held on January 
23, 2016, at the Malheur National Wildlife Refuge headquarters, at 
which the occupiers pleaded for local ranchers to publicly renounce 
their Federal grazing contracts and to declare their grazing allotments 
to be their own private land. However, no Harney County ranchers 
participated in the event (only one rancher, from New Mexico, did so).
    In the nearby communities of Burns and Hines (the main population 
centers of Harney County) militia aligned with the armed occupiers at 
the Malheur Refuge engaged in a campaign of harassment of Federal 
employees and local law enforcement officers who refused to cooperate 
with the occupiers. The occupiers also attempted to establish a new de 
facto county government in the form a ``committee of safety,'' which 
the militants formed with a small group of local supporters. The goal 
was to seize control of local government and to intimidate Federal 
workers.
    The community of Harney County overwhelmingly rejected the 
militants' goals and in particular their armed methods. No public 
opinion surveys were conducted at the time, but in my observations it 
was clear that the majority of the community opposed the militants. On 
January 19, 2016, for example, the armed occupiers arrived unannounced 
at a community meeting in the Burns High School gym. It was the only 
occasion during the occupation when militants met with a cross-section 
of the community. The county judge stood and told the militants to ``Go 
home,'' and the great majority in the room then stood and chanted ``Go 
home, go home, go home.''
    The impression that the majority in the community opposed the 
militants was supported later that year in a series of local elections 
in which local ``pro-militia'' and ``anti-militia'' candidates filled 
the election roster. ``Anti-militia'' candidates for county 
commissioner won a total of about 80 percent of the primary vote, and 
the ``anti-militia'' winner of the general election won with more than 
95 percent support. In June 2016, a recall against the county judge, 
seen widely as a referendum on the militia occupation, failed--with 
more than 70 percent opposing the removal of the anti-militia county 
judge. Therefore it can be said with confidence that 70-80 percent of 
the community was ``anti-militia.'' However, the elections were widely 
interpreted as referendums on the anti-government ideology represented 
by the militants, not their armed methods. When I asked local people 
how much of the community they believed supported the anti-government 
ideology and the militants' armed methods, the estimates of support 
ranged from 3-10 percent. In addition, much of the local support for 
the outside militants appeared tied to efforts to release the pair of 
local ranchers in Federal prison for arson; when those ranchers 
received a presidential pardon in July 2018, local support for the 
outside militants appeared to all but disappear.
    It is important to note that while the media at the time often 
described the militants as ranchers, in fact only one of the outside 
militant leaders, and only two active local supporters, could even 
plausibly be described as working ranchers. The overwhelming majority 
of outside militants and local supporters had no direct interactions 
with Federal resource management agencies. The occupation of the 
Malheur National Wildlife Refuge was primarily an ideologically-based 
anti-Federal Government political movement, not a movement of ranchers, 
loggers, or other resource users. Among the outside militants, 
including members of the self-declared ``Patriot'' movement, there was 
strong representation of broader racist and xenophobic political groups 
that had for decades specifically adopted the position of promoting a 
``second American revolution.'' While the main leaders of the Malheur 
Refuge occupation did not come from this broader political movement, 
the ``Patriot'' groups that supported the occupation appeared to be 
attracted by the armed, revolutionary aspects of the ``hard stand'' at 
the Malheur Refuge.
              impacts on malheur national wildlife refuge
    Although the Malheur National Wildlife Refuge has today mostly 
recovered from the disruptions associated with the militant takeover in 
January and February 2016, the disruption at the time was significant 
and continues to some extent to the present. In addition to the 
immediate interruption of operations during the occupation (from 
January 2, 2016 to February 11, 2016), the occupiers left behind 
extensive physical damage (including disturbance of Native American 
cultural artifacts), and the refuge itself became the site of an 
extended criminal investigation. Other Federal agency offices, 
including the U.S. Bureau of Land Management and U.S. Forest Service 
offices in nearby Burns were also closed for extended periods due to 
concerns for employee safety. Staff were able to return to work at the 
MNWR headquarters using temporary structures by the end of February 
2016; but with extensive vandalism to important files and physical 
damage to buildings, the refuge headquarters remained closed to the 
public for more than a year, fully reopening in March 2017.
    The impacts of the militant occupation of the MNWR also included 
the very substantial disruption of the lives of refuge staff and loss 
of long-term institutional knowledge. At the time of the occupation, 
most staff were evacuated out of Harney County because of safety 
concerns. The result was that staff had to leave their personal and 
professional lives behind while hostile occupiers searched through 
their private and professional information left behind at the refuge. 
Staff felt violated, and some perceived their physical safety to be in 
danger. Well after the occupation the traumatic effects remained deeply 
felt by some employees. Of the 16 full-time employees at the refuge at 
the time of the occupation, 4 resigned from their positions at least in 
part because of the trauma they experienced. In the near term the 
impacts on the operation of the refuge were significant, as the 
departing employees possessed highly specialized knowledge accrued over 
decades of service. In some cases, because of organizational changes 
within the U.S. Fish & Wildlife Service, vacated positions were not re-
filled with on-site staff.
    Despite the very substantial disruption and losses of expertise, 
the MNWR displayed remarkable resilience, in part because of its status 
as one of the gems in the National Wildlife Refuge system. After the 
occupation, questions arose as to whether qualified professionals would 
be willing to take positions at the Malheur Refuge so soon after the 
traumatic events of the 2016 takeover. Quickly, however, the vacated 
positions were filled with qualified professionals. Some of the new 
employees expressly stated that they were attracted by the excellent 
reputation of the Malheur Refuge as a ``success story'' and its 
innovative efforts to work constructively with the community through 
collaborative processes such as the Malheur Comprehensive Conservation 
Plan, coordinated by the local non-profit High Desert Partnership.
             collaboration and the high desert partnership
    The Malheur National Wildlife Refuge and the community of Harney 
County displayed remarkable resilience despite the extraordinary 
disturbances associated with the militant occupation in January and 
February 2016. In large part this resilience can be attributed to an 
investment the community and the refuge had made over the previous two 
decades in developing collaborative ways to promote deep engagement of 
all stakeholders in decision-making for natural resource management. 
Exhausted by legal fighting and resource management failures, in the 
late 1990s and early 2000s a small group of individuals including local 
ranchers, Federal and county employees, conservation groups and others 
set out to find a different way forward.
    Much of this effort to promote deeply engaged stakeholder 
collaboration was organized by a remarkable locally-based non-profit 
organization called the High Desert Partnership. Formally established 
in 2005, the HDP focuses on building relationships among members of the 
community who represent different perspectives but are not firmly 
invested in specific outcomes.
    By building these relationships, the HDP strives to find 
innovative, win-win solutions to social-ecological problems in a manner 
that avoids adversarial interactions. As a private non-profit, the HDP 
is relatively free to pursue paths not directly mandated or constrained 
by government rules.
    The decision to create the HDP was motivated by conflict-ridden, 
failed interactions in the past. Local rancher Gary Marshall and 
Malheur National Wildlife Refuge manager Chad Karges knew the refuge 
would be required to begin developing a Comprehensive Conservation Plan 
(CCP) by 2010, and they set out to study collaborative methods and 
relationship-building to be ready for the CCP process. They invited 
participation from outside stakeholders including conservation groups. 
Marshall and Karges knocked on doors and shook hands throughout the 
local community to build the relationships and trust needed to persuade 
a community more accustomed to conflict with the Malheur Refuge to give 
the new non-adversarial, collaborative approach a try. The High Desert 
Partnership does not do projects; it builds relationships and 
facilitates conversations with the intent to find collaborative win-win 
solutions to problems that might otherwise result in conflict and 
litigation. The group does not advocate particular outcomes; it 
supports dialogue in pursuit of positive outcomes for the ecology, 
economy, and community.
    The signature accomplishment of the HDP's approach was its 
establishment of a diverse working group of about 30 stakeholders to 
craft the 2013 Malheur Comprehensive Conservation Plan, which detailed 
the goals and methods for managing the refuge for the following 15 
years. After 3 years of dialogue, the working group produced a 779-page 
document that became what the HDP describes as the nation's first 
collaboratively created comprehensive conservation plan. Given the 
contentious relations between the Malheur Refuge and the local 
community in the past, the fact that local ranchers and farmers, the 
Burns Paiute Tribe, and county government, as well as conservationists 
and agency officials, all endorsed the plan was an astonishing 
achievement. Possibly the most powerful evidence of success is the fact 
that the Malheur CCP was the first plan of its scale in Harney County 
for many years that was not sued. Then-refuge manager Chad Karges 
observed, ``No one thought it could be done.'' After the plan was 
approved, the CCP working group continued meeting to collaboratively 
decide on necessary adaptions in the plan's implementation.
    The High Desert Partnership has become more than just an 
institution, it has become part of the life and culture in Harney 
County--a proactive, non-adversarial, relationship-based approach 
sometimes described locally simply as ``the Harney County way.'' The 
HDP itself has expanded to support a range of initiatives including but 
not limited to natural resource management--focusing on management of 
wetlands and forests, but also a wildfire collaborative as well as 
initiatives to support local youth and business entrepreneurship. The 
``Harney County way'' has also spread to many other local community-
based initiatives beyond the HDP, including habitat management for sage 
grouse and a major local groundwater planning initiative.
                   recommendations for federal policy
    The existence of collaborative organizations in Harney County was 
crucial in enabling local residents to reject rhetoric by outside 
militants that the Federal Government--embodied in local Federal 
employees--represents ``tyranny'' and ``abuse.'' The primary goal of 
local collaborative organizations in Harney County has been to build 
relationships, communication, and trust between stakeholders. Through 
their participation in collaboratives, Federal employees were able to 
build goodwill and trust within the local community. Collaboratives 
provide a neutral, safe environment where residents can come to know 
Federal employees as individual people doing the best they can, 
sometimes under difficult circumstances. Mutual trust, respect, and 
even friendships are often a direct result. When Federal employees 
become humanized in this way, anti-government rhetoric--including 
efforts to threaten and harass Federal workers--is unlikely to find a 
receptive audience. As one rancher observed to me, ``Collaboration is 
what inoculated us from the [militant] disease.''
    This is a crucial observation. Almost everyone I spoke with in 
Harney County after the 2016 Malheur Refuge occupation agreed on one 
thing: if the occupiers had attempted the same kind of standoff against 
Federal agencies and staff in a different community that had not 
invested in building collaborative relationships, the outcome would 
likely have been far worse--including the very real possibility of a 
bloodbath that clearly some of the occupiers wanted. Such an event that 
would have likely inspired further anti-government violence for decades 
to come.
    If collaboration is one important way to build better relationships 
between Federal agencies and local communities, an important question 
is how such initiatives can be promoted at a wider scale. The 
experience of collaboration at the Malheur National Wildlife Refuge 
represents a very important opportunity. At a time when this country 
has seen unprecedented polarization, the community in Harney County 
came together to find common ground on this historically conflicted 
landscape. The success of this project matters because at a time when 
Americans are often cynical about reaching across political, 
intellectual, social, environmental and economic divides, Harney County 
as well as outside stakeholders intentionally chose to take a different 
path and have maintained that resolve in the face of unprecedented 
challenges.
    In some ways the development of such approaches depends 
fundamentally on local initiative and individual personalities. Almost 
by definition these are things that the Federal Government cannot 
provide. This does not mean there is no constructive role for Federal 
Government in promoting such approaches. Federal Government can play an 
important role in encouraging the growth of such initiatives by 
reducing barriers within Federal agencies that may inhibit the 
development of local collaboratives, and by supporting initiatives with 
high potential or proven records of encouraging effective collaborative 
resource management.
                federal policy to support collaboration
Reducing Institutional Barriers
    In the example of the 2013 Malheur Comprehensive Conservation Plan, 
the initiative that led to the creation of a successful collaboratively 
created management plan required deviation from usual Federal agency 
policy by allowing Federal managers at the local level to draft a plan 
through a stakeholder process that encouraged input from all interested 
parties from the very beginning of the planning process. This method of 
engaging the public departs from standard procedures in which agency 
staff draft a plan and put it out for public input near the end of the 
process. The collaborative approach initially met substantial 
skepticism from Federal managers above the local level, who were 
concerned about delegating to the local level too much control over the 
planning process. In the case of the Malheur Refuge, local managers had 
to go to considerable effort and even put their professional careers at 
risk to persuade higher-level managers that the locally-based 
collaborative approach could produce a sound plan in compliance with 
all Federal standards. Drawing inspiration and confidence from the 
positive outcome at the Malheur Refuge and other successful 
collaborations, Federal Government can facilitate local collaboration 
by reducing policy barriers and enabling local managers to engage in 
promising collaborative initiatives without unduly jeopardizing their 
careers.
    In addition, Federal policy can be modified to support the very 
important challenge of sustaining collaborative initiatives once they 
are established. Harney County's High Desert Partnership, for example, 
faces the challenge of recruiting future managers at the Malheur 
National Wildlife Refuge who understand and are committed to the 
collaborative approach. Ensuring that refuge leadership (as well as 
agency leadership at USFWS and the Department of the Interior) remains 
supportive of the collaborative efforts will be crucial. As transitions 
occur, special care will be needed to ensure that new personnel are 
truly steeped in collaboration and committed to continuing the work 
that is underway. This is an important and rare skill, and new 
leadership should have extensive demonstrable experience working within 
this type of framework.
    Federal policy can also encourage collaboration by reducing career 
advancement policies that in effect encourage frequent relocation. 
Successful collaboration requires building relationships of trust in 
Federal employees. Relationships of trust tend to develop over extended 
periods of time, as Federal employees become recognized as members of a 
community. Many of the Federal employees I spoke with in Harney County 
complained that advancing their careers within the Federal agencies 
often requires relocation. Personnel turnover is inevitable in large 
agencies, and successful collaboratives can and do cope with changes in 
Federal agency staff. However, such changes can slow down or alter the 
momentum of collaborative efforts, and the Federal Government should 
re-consider personnel policies that may force agency staff to choose 
between advancing their careers and developing the kind of longer-term 
ties to local communities that enhance their capacities to engage in 
effective local collaborations.
    In addition, I was told by local Federal employees that agencies 
could do more to encourage staff to engage in community activities, 
including collaboration. Some employees expressed concern that employee 
engagement with local community life is not fully encouraged by agency 
management. While engagement in community life during non-working hours 
is obviously up to the individual employee, Federal agencies should 
consider efforts to communicate to staff that within appropriate 
guidelines such local engagement is allowed and encouraged.
Greater Flexibility in Funding
    Higher levels of government discretionary funds and flexibility in 
funding requirements could be of great value in helping collaborative 
organizations to operate sustainably and effectively. One challenge for 
collaborative organizations is that by definition they cannot be funded 
by membership fees--all stakeholders must be equally welcome and able 
to participate in the collaborative process, no matter their financial 
status. In practice this means that participation must be free for all 
those who wish to participate. This creates obvious financial 
challenges that can at least in part be addressed by Federal policy.
    In Harney County, the non-profit High Desert Partnership provides a 
good example of the complex funding challenges. The HDP does not 
directly engage in problem-solving projects but instead helps to 
facilitate the conversations and relationship-building that are 
essential for a wide range of other more project-oriented initiatives 
(from wildfire and wetlands management to youth development). This 
model, while proven successful in terms of positive local results, 
poses funding challenges because many grant-making institutions, both 
public and private, tend to steer their funding streams toward specific 
problem-solving rather than collaborative capacity-building. In 
addition, because the mission of the HDP is to be a neutral party, 
there is great sensitivity to appearing to be financially beholden to 
any specific outside interests, especially those that might be 
perceived as having particular political agendas.
    Presently the HDP is funded through a complex and shifting mix of 
state and Federal support, grants from private foundations, and private 
donations. Private funding, whether through foundations or individual 
donations, is an important part of the mix but tends to be 
unpredictable, posing substantial challenges to building and 
maintaining organizational capacity. State and Federal funding poses 
its own challenges including reporting requirements and constraints on 
the flexibility of how funds can be spent. While fully recognizing the 
importance of accountability and compliance with existing government 
policy (for example, Federal Advisory Committee Act requirements), 
collaborative organizations by definition function differently and do 
not necessarily conform to conventional practices, creating problems of 
``fit'' between agency funding requirements and the flexibility needed 
to make the collaborative model effective. It is important to note that 
collaboration is very different from some other forms of community 
involvement, such as Resource Advisory Councils. Whereas the RACs serve 
as sounding boards for existing or proposed policies put forward by 
agencies, collaborative organizations such as the HDP build management 
plans directly from the local community. HDP staff observed to me that 
at times they are questioned as to why they should receive funding when 
other mechanisms for public input such as the RACs are already in 
place. These are both valuable approaches, but they are very different 
and they should be seen as complementary rather than redundant.
    In addition to facilitating funds to support collaborative 
processes, the Federal Government should consider greater investment in 
on-the-ground implementation. Many collaborative organizations are 
getting close to large scale implementation of projects. Too often 
Federal agency leadership appears satisfied with collaboration as an 
end unto itself, but ultimately the value of collaboration must be 
measured by its ability to deliver substantive improvement on the 
ground. There exists substantial public skepticism about these 
collaboratives because they can be seen as diversions that consume a 
lot of time and energy but fail to deliver outcomes. The ability to 
maintain collaboration in Harney County and to inspire other similar 
efforts ultimately will depend on the ability to demonstrate that 
collaboration delivers results on the ground that exceed what would 
have been accomplished under more tradition conflict driven pathways.
Changing Perceptions of Federal Employees
    The militants who occupied the Malheur National Wildlife Refuge in 
2016 failed in large part because they assumed that the deep hostility 
they held toward Federal Government and Federal employees was shared by 
the majority of people in Harney County. Thanks partly to Harney 
County's long-standing effort to build a culture of collaboration, that 
assumption proved largely false. Although there are certainly tensions 
between some Federal employees and local residents, I was told over and 
over that Harney County experienced a sea change from the attitudes 
prevalent in the 1970s-1990s, when animosity between Federal employees 
and the community ran deep. Today, Federal employees are more commonly 
seen as neighbors and friends. And in many cases, Federal employees are 
themselves members of local families.
    Friction does, however, still exist, and more can be done to break 
down unnecessary barriers. Federal Government can help break barriers 
between Federal employees and local communities with modest policy 
shifts. For example, I was told that there are simple things that can 
be done such as allowing Federal employees to work more often without 
uniforms. Uniforms create psychological separation, and contribute to 
seeing agency employees as tools of government power rather than as 
people. One rancher observed that when his daughter, who was born and 
raised in the community, began working for the Bureau of Land 
Management and put on an agency uniform, she found friends she had 
known all her life treated her completely differently, as if she was 
not part of the community, not a friend who cares--not even as a person 
at all.
    The history of uniformed Federal resource agents dates to the 
earliest period of Federal forest management, when forests were 
literally patrolled by soldiers. Today, when tensions between Federal 
Government and some communities are already too high, it may be time to 
re-examine anachronistic policies that invoke notions of a war between 
government and its people. Such notions are all too easy to exploit by 
those who seek to kindle an actual war between the Federal Government 
and the people.

                                 ______
                                 

    Ms. Haaland. Thank you, Professor Walker.
    The Chair now recognizes Ms. Anne-Marie Fennell, Director 
of the Natural Resources and Environment Team at the U.S. 
Government Accountability Office.
    You have 5 minutes, Ms. Fennell.

 STATEMENT OF ANNE-MARIE FENNELL, DIRECTOR, NATURAL RESOURCES 
 AND ENVIRONMENT TEAM, U.S. GOVERNMENT ACCOUNTABILITY OFFICE, 
                         WASHINGTON, DC

    Ms. Fennell. Chairwoman Haaland, Ranking Member, and 
members of the Subcommittee, thank you for the opportunity to 
discuss our report on how the Forest Service, Bureau of Land 
Management, Fish and Wildlife Service, and National Park 
Service protect their employees and secure their facilities 
across nearly 700 million acres of lands that they manage. My 
statement today summarizes our findings.
    For the four Federal land management agencies, I will 
discuss: (1) what is known about the number of threats and 
assaults against their employees; (2) approaches agencies take 
to protect their employees; and (3) the extent to which the 
agencies met Federal facility security requirements.
    First, available Federal law enforcement data show a range 
of threats and assaults against the four Federal land 
management agency employees in Fiscal Years 2013 through 2017. 
The severity of these incidents range from phone threats to the 
stabbing of an employee outside of a Federal building. The 
number of incidents varied by agency. For the 5-year period, 
there were 88 incidents for BLM, 66 for Fish and Wildlife 
Service, 177 for Forest Service, and 29 for Park Service. FBI 
data for this time period showed the FBI initiated under 100 
domestic terrorism investigations into potential threats to 
these four agencies.
    The majority of these investigations involved BLM, as well 
as individuals motivated by anti-government ideologies. For 
instance, the FBI investigated a case where a BLM officer 
received over 500 harassing phone calls and several death 
threats. Once the officer's personal information was posted on 
Twitter.
    However, the number of actual threats and assaults is 
unclear, because not all incidents are captured in the agency's 
databases for various reasons. For example, some incidents are 
investigated by local and state law enforcement, and may not be 
included in Federal databases. In addition, land management 
agency employees do not always report all threats. Some said 
that, in certain circumstances, they consider receiving threats 
as a normal part of their job.
    Second, Federal land management agencies use various 
approaches to protect their employees, such as building 
relationships with local, state, and Federal law enforcement 
entities. For instance, the Las Vegas police kept a patrol car 
outside a field unit in Nevada during a high-profile court 
case. Agency officials noted factors that can affect their 
ability to protect employees, such as those in remote 
locations. Also, the number of field law enforcement officers 
at the four agencies has declined from Fiscal Years 2013 to 
2018, with Forest Service experiencing the largest decrease of 
22 percent.
    Third, the four land management agencies have not completed 
all facility security assessments required by Federal standards 
developed by the Interagency Security Committee, or ISC. Agency 
officials cited various reasons for not doing so, including a 
lack of resources, training, and expertise. Not complying with 
the ISC requirements to complete these assessments could leave 
agencies exposed to risk to protecting their employees and 
facilities. While Fish and Wildlife Service has a plan to 
complete its assessments, BLM, the Forest Service, and Park 
Service do not.
    The ISC standard also requires that agencies conduct 
assessments using a methodology that meets certain key 
requirements. The Forest Service meets and the Park Service 
partially meets these key requirements. BLM and Fish and 
Wildlife Service have not yet established methodologies. 
Without compliant methodologies, agencies may not identify all 
the risks their facilities face, or the countermeasures to 
mitigate those risks.
    We made six recommendations calling for agencies to develop 
a plan to conduct assessments and methodologies to comply with 
ISC requirements. The agencies agreed, and noted a number of 
steps they were going to take to implement the recommendations.

    Chairwoman Haaland, Ranking Member Curtis, and members of 
the Subcommittee, this completes my prepared statement. I am 
pleased to respond to questions.

    [The prepared statement of Ms. Fennell follows:]
 Prepared Statement of Anne-Marie Fennell, Director, Natural Resources 
         and Environment, U.S. Government Accountability Office
    Chairwoman Haaland, Republican Leader Young, and members of the 
Subcommittee: Thank you for the opportunity to discuss our recent 
review of how four Federal land management agencies--the Forest Service 
in the U.S. Department of Agriculture and the Bureau of Land Management 
(BLM), Fish and Wildlife Service (FWS), and National Park Service (Park 
Service) in the Department of the Interior--protect their employees and 
secure their facilities. In 2014, a report by the Department of 
Homeland Security predicted that the rate of violent domestic extremist 
incidents motivated by anti-government ideology would increase in the 
coming years, with a focus on government facilities and personnel, 
among other targets.\1\ Recently, there have been several high-profile 
incidents on Federal lands involving individuals motivated by anti-
government ideologies, according to agency officials, including an 
armed occupation of the Malheur National Wildlife Refuge in rural 
Oregon in 2016. The refuge was occupied for nearly 6 weeks by armed 
individuals and damages to the land and facilities at the refuge, plus 
the local, state, and FWS law enforcement responses, cost over $9 
million, according to local and Federal officials.
---------------------------------------------------------------------------
    \1\ Department of Homeland Security, Office of Intelligence 
Analysis, Domestic Violent Extremists Pose Increased Threat to 
Government Officials and Law Enforcement, IA-0201-14 (July 22, 2014).

    The four Federal land management agencies have law enforcement 
divisions that protect their employees and secure their facilities 
across nearly 700 million acres of Federal lands.\2\ To do so, agencies 
employ uniformed law enforcement officers who patrol Federal lands, 
respond to illegal activities, conduct routine investigations, and 
record information about incidents in their agency's law enforcement 
data system.\3\
---------------------------------------------------------------------------
    \2\ While all four agencies' law enforcement officers also have 
responsibilities for ensuring visitor safety, for the purposes of this 
testimony statement, we focus on their responsibilities for protecting 
employees and securing facilities.
    \3\ Each agency has its own terminology to refer to its uniformed 
field law enforcement personnel. For example, BLM's uniformed field law 
enforcement officers are known as rangers, while FWS' field law 
enforcement officers are known as Federal Wildlife Officers. For the 
purposes of this testimony statement, we use the term law enforcement 
officer across the four land management agencies. Each agency also has 
investigative special agents who conduct investigations of serious 
crimes but are not responsible for responding to threats and assaults 
against employees.
---------------------------------------------------------------------------
    Depending on the agency, its law enforcement officers may also 
provide expert advice in assessing the security of their agency's 
facilities. Specifically, the four agencies are required to follow 
Federal facility security standards developed by the Interagency 
Security Committee (ISC).\4\ One such standard--the ISC Standard--
defines the criteria and processes executive agencies and departments 
are to follow when assessing risks to their facilities through facility 
security assessments and provides key requirements that the assessment 
methodologies must include.\5\ Based on the results of the assessments, 
the ISC Standard further guides agencies and departments in determining 
which protective measures (referred to as countermeasures)--such as 
identification badges, blast-resistant windows, and security gates--to 
implement. In previous work, we found that some Federal agencies had 
not fully followed the ISC Standard, leaving agencies' facilities and 
employees exposed to risk.\6\
---------------------------------------------------------------------------
    \4\ The ISC is chaired by Department of Homeland Security. Its 
mandate is to enhance the quality and effectiveness of security in and 
protection of buildings and facilities in the United States occupied by 
federal employees for nonmilitary activities. As of June 2019, 60 
federal departments and agencies were members of the ISC. The ISC was 
established by executive order following the 1995 bombing of the Alfred 
P. Murrah Federal Building in Oklahoma City. Executive Order 12977, 60 
Fed. Reg. 54411 (Oct. 24, 1995), as amended by Executive Order 13286, 
68 Fed. Reg. 10624 (Mar. 5, 2003). Executive Order 12977 refers to 
buildings and facilities in the United States occupied by federal 
employees for nonmilitary activities as ``federal facilities.''
    \5\ Interagency Security Committee, The Risk Management Process for 
Federal Facilities: An Interagency Security Committee Standard 
(Washington, DC: November 2016). As of June 2019, the November 2016 
version of the ISC Standard was the most current.
    \6\ See, for example, GAO, Federal Facility Security: Additional 
Actions Needed to Help Agencies Comply with Risk Assessment Methodology 
Standards, GAO-14-86 (Washington, DC: Mar. 5, 2014), and GAO, Federal 
Facility Security: Selected Agencies Should Improve Methods for 
Assessing and Monitoring Risk, GAO-18-72 (Washington, DC: Oct. 26, 
2017).
---------------------------------------------------------------------------
    My statement today summarizes the findings of our September 2019 
report on Federal land management agencies' efforts to protect their 
employees and secure their facilities.\7\ Specifically, for the four 
Federal land management agencies, I will discuss (1) what is known 
about the number of threats and assaults against their employees, (2) 
the approaches the agencies used to protect their employees from 
threats and assaults and factors affecting their ability to do so, and 
(3) the extent to which the agencies met Federal facility security 
assessment requirements.
---------------------------------------------------------------------------
    \7\ GAO, Federal Land Management Agencies: Additional Actions 
Needed to Address Facility Security Assessment Requirements, GAO-19-643 
(Washington, DC: September 25, 2019).
---------------------------------------------------------------------------
    To develop the findings we outlined in the report on which this 
testimony statement is based, we analyzed data on the number of 
incidents of threats and assaults against land management agency 
employees from the four agencies' law enforcement databases for fiscal 
years 2013 through 2017--the most recent data available at the time of 
our review. We also obtained data for this time period from the FBI on 
investigations into potential domestic terror threats to land 
management agencies.
    Additionally, we conducted semi-structured interviews with 
officials during site visits to a nongeneralizable sample of 11 of the 
35 regional or state offices and 14 field units across the four Federal 
land management agencies. Finally, we assessed whether the agencies had 
conducted required facility security assessments on their occupied 
facilities and examined the extent to which their facility security 
risk assessment methodologies complied with two key requirements in the 
ISC Standard.\8\ Additional information on our scope and methodology is 
available in our September 2019 report.\9\ The work upon which this 
testimony statement is based was conducted in accordance with generally 
accepted government auditing standards.
---------------------------------------------------------------------------
    \8\ The ISC Standard outlines four key requirements for facility 
security assessment methodologies. Specifically, methodologies are to 
(1) consider all 33 of the undesirable events identified in the 
Standard; (2) evaluate the three factors of risk--threat, 
vulnerability, and consequence--for each undesirable event; (3) produce 
similar or identical results when applied by various security 
professionals; and (4) provide sufficient justification for deviations 
from the ISC-defined security baseline. We selected the first two key 
requirements for our analysis because we could objectively verify 
agencies' compliance by reviewing and analyzing agency documentation 
and interviewing agency officials.
    \9\ GAO-19-643.
---------------------------------------------------------------------------

    Available Data Show a Range of Threats and Assaults against Land

Management Agency Employees, but Not All Incidents are Captured in the 
                                  Data

    Available Federal law enforcement data show a range of threats and 
assaults against the four Federal land management agencies' employees 
in fiscal years 2013 through 2017.\10\<SUP>,</SUP>\11\ The severity of 
these incidents ranged from threats conveyed over the telephone to 
attempted murder and included an incident in which an employee was 
stabbed outside a Federal building. The number of incidents of threats 
and assaults varied by agency. For example, for fiscal years 2013 
through 2017:
---------------------------------------------------------------------------
    \10\ For the purposes of this testimony statement, employee refers 
to land management agency employees, volunteers, and contractors, 
unless otherwise noted.
    \11\ The land management agencies' data systems were not 
specifically designed for reporting threats and assaults against 
employees and do not include the suspect's motivation for a crime--such 
as anti-government extremist ideologies. Additionally, to varying 
degrees, agency officials reviewed their respective data and removed 
incident data that appeared not to constitute actual threats or 
assaults to employees. For these reasons, and because we determined 
that not all incidents are captured in the data, we did not analyze the 
data for annual trends.

    <bullet> BLM data included 88 incidents of threats and assaults 
---------------------------------------------------------------------------
            against BLM employees;

    <bullet> FWS data included 66 incidents of threats and assaults 
            against FWS employees;

    <bullet> Forest Service data included 177 incidents of threats and 
            assaults against Forest Service employees; and

    <bullet> Park Service data included 29 incidents of threats and 
            assaults against Park Service employees.\12\
---------------------------------------------------------------------------
    \12\ Park Service data included employees only and did not include 
volunteers or contractors.

    Further, FBI data for fiscal years 2013 through 2017 show that the 
FBI initiated under 100 domestic terrorism investigations into 
potential threats to Federal land management 
agencies.\13\<SUP>,</SUP>\14\ Our analysis of the FBI data showed that 
the majority of the domestic terrorism investigations involved BLM. 
Additionally, the majority involved individuals motivated by anti-
government ideologies. For example, the FBI investigated one case in 
which a BLM law enforcement officer received more than 500 harassing 
phone calls and several death threats after a subject posted personal 
information about the officer on the social media platform Twitter.
---------------------------------------------------------------------------
    \13\ The exact number of domestic terrorism investigations 
initiated by the FBI into threats and assaults to land management 
agencies is law enforcement sensitive information. The FBI receives 
information from a variety of sources, including from confidential 
human sources; public tips; and state, local, tribal, and federal 
partners. Land management agency officials told us they refer only the 
most serious incidents to the FBI--such as the armed occupation of 
Malheur National Wildlife Refuge. According to FBI officials, an 
investigation into a domestic terrorism threat may only be initiated if 
there is information indicating potential violent criminal activity 
committed in furtherance of ideology.
    \14\ According to FBI officials, the FBI does not collect 
intelligence or conduct investigations based solely on constitutionally 
protected activity--such as individuals exercising their right to free 
speech. Further, every subject of a domestic terrorism investigation 
must have individual predication (i.e., mere association with another 
subject is not sufficient for predication).
---------------------------------------------------------------------------
    However, the number of actual threats and assaults against Federal 
land management employees is unclear and may be higher than what is 
represented in available data, because not all incidents of threats and 
assaults against land management agency employees are captured in the 
agencies' databases. There are several reasons why this may be the 
case. Specifically, some incidents of threats and assaults are 
investigated by local or state law enforcement and may be recorded in 
their data systems rather than in the land management agencies' 
systems. Additionally, officials from two agencies we interviewed said 
that when a single incident involved multiple offenses, the less 
serious offenses are unlikely to be recorded in the data system and, 
therefore, the entirety of what occurred may not be captured.
    Further, land management agency employees do not always report all 
incidents of threats. For example, some field unit employees said that 
in certain circumstances, they consider receiving threats as a normal 
part of their job. Some officials also described being threatened while 
off duty, such as being harassed in local stores or being monitored at 
their home, and they said that in some cases they did not report the 
incident because it was a common occurrence. However, even in more 
high-profile incidents, agency officials told us that employees may not 
always report threats to agency law enforcement. For example, agency 
officials we interviewed cited specific incidents around the time of 
the 2016 armed occupation of FWS' Malheur National Wildlife Refuge that 
they did not necessarily report to their agency's law enforcement. 
These incidents included individuals holding anti-government beliefs 
who followed a teenage girl wearing a BLM shirt around the local 
grocery store and threatened to burn her house down, and agency 
employees who had shots fired over their heads while working in the 
field. According to officials at two agencies, many employees were 
traumatized by the Malheur occupation and some did not return to work, 
including some who transferred to other agency field units.

 Land Management Agencies Use Various Approaches to Protect Employees, 
         but Several Factors May Affect Their Ability to Do So

    Federal land management agencies use various approaches to protect 
their employees from threats and assaults, including deploying agency 
law enforcement officers to protect employees and resources and 
building relationships with external law enforcement entities and the 
public. Specifically, when necessary, agencies deploy additional law 
enforcement officers to assist their local officers. For example, 
during the armed occupation of the Malheur National Wildlife Refuge, 
FWS officials reported deploying FWS law enforcement officers from 
around the country to field units in western states to provide 
additional security for FWS employees.
    Agency officials we interviewed also told us that they build 
relationships with local, state, and other Federal agency law 
enforcement entities to help protect employees and resources in the 
field and to assist with coordinating law enforcement responses. Such 
relationships are important because not all field units have a law 
enforcement officer, and those that do often rely on local law 
enforcement for assistance in responding to incidents of threats or 
assaults against agency employees. For example, officials we 
interviewed at a field unit in Nevada stated that during a high-profile 
court case involving the agency, the Las Vegas Metropolitan Police 
Department kept a patrol car outside the field unit for several days to 
help ensure field unit employees' safety. Finally, officials at several 
field units we visited stated that their law enforcement officers are 
focused on educating, rather than policing, visitors.
    Agency officials we interviewed cited several factors that can 
affect their ability to protect employees. Specifically, agency 
officials noted that employees are required to interact with the public 
as part of their official duties and may wear uniforms, which makes 
them easily recognizable and can put them at risk of being threatened 
or assaulted. (See Figure 1.) Additionally, agency officials stated 
that it can be difficult to protect employees because, as part of their 
field work, employees may be dispersed across hundreds of miles of 
Federal lands and may be located hours or days away from the nearest 
agency law enforcement officer. For example, as of fiscal year 2018, 
BLM had 194 field law enforcement officers to cover the 245 million 
acres of land managed by BLM.

   Figure 1: Examples of Fish and Wildlife Service and National Park 
                       Service Employee Uniforms
[GRAPHIC] [TIFF OMITTED] T8270.001


    .epsSources: U.S. Fish and Wildlife Service (left photo); National 
Park Service (right photo).
    Further, the number of agency field law enforcement officers at all 
four land management agencies declined from fiscal year 2013 through 
fiscal year 2018. For example, BLM experienced a decrease of 9 percent, 
while the Forest Service experienced a decrease of 22 percent, the 
largest decrease among the four agencies. Finally, agency officials we 
interviewed said that the risk to employee safety posed by individuals 
holding anti-government sentiments can be unpredictable and that 
incidents of threats and assaults against employees by such individuals 
are generally sporadic.

    Land Management Agencies Have Not Met Certain Facility Security 
                        Assessment Requirements

    The four Federal land management agencies have completed some but 
not all of the facility security assessments on their occupied Federal 
facilities as required by the ISC Standard. Agency officials cited 
various reasons for not doing so, including lack of resources, 
training, and expertise. Not complying with the ISC Standard's 
requirement to complete facility security assessments on all occupied 
facilities could leave Federal agencies exposed to risks in protecting 
their employees and facilities. While FWS has a plan to complete its 
assessments, BLM, the Forest Service, and the Park Service do not. 
Specifically:

    <bullet> FWS. FWS has conducted five facility security assessments 
            on its approximately 465 occupied facilities. According to 
            FWS headquarters officials, FWS employees have limited 
            physical security expertise to conduct facility security 
            assessments; therefore, the agency has developed a plan to 
            meet the ISC Standard's requirement using contractors.

    <bullet> BLM. BLM has conducted 21 facility security assessments on 
            its approximately 280 occupied facilities, but officials do 
            not know when they will complete the remaining assessments 
            and do not have a plan to do so.\15\
---------------------------------------------------------------------------
    \15\ According to BLM and Interior officials, Interior's Office of 
Law Enforcement and Security completed 16 of the 21 facility security 
assessments on behalf of BLM. The other five were completed by BLM 
state office officials in Colorado whom Interior officials had trained 
to conduct facility security assessments.

    <bullet> Forest Service. The Forest Service has conducted at least 
            135 facility security assessments on its approximately 
            1,135 occupied facilities, but officials do not know when 
            they will complete the remaining assessments and do not 
---------------------------------------------------------------------------
            have a plan for doing so.

    <bullet> Park Service. The Park Service has conducted at least 148 
            facility security assessments on its approximately 1,505 
            occupied facilities, but officials do not know when they 
            will complete the remaining assessments and do not have a 
            plan to do so.

    The ISC Standard requires that agencies conduct assessments using a 
methodology that meets, among other things, two key requirements: (1) 
consider all of the undesirable events (e.g., arson and vandalism) 
identified in the ISC Standard as possible risks to facilities, and (2) 
assess the threat, vulnerability, and consequence for each of these 
events. The Forest Service's methodology meets these two requirements 
and utilizes an ISC-compliant facility security assessment methodology 
developed by the U.S. Department of Agriculture. The Park Service's 
methodology partially meets the requirements because it does not 
include a step to assess the consequences of specific undesirable 
events, as required by the ISC Standard. BLM and FWS have not yet 
established methodologies for conducting facility security assessments, 
although officials we interviewed from each agency stated that they 
intend to develop an ISC-compliant methodology. Specifically, BLM 
officials told us that they plan to hire a security manager who will 
develop an assessment methodology but did not know when the manager 
would be hired. FWS officials we interviewed provided a high-level 
description of what they expected to be included in their new 
methodology. However, FWS's description did not indicate that the 
agency would evaluate the consequences of specific undesirable events, 
as required by the ISC Standard. Without developing a plan for 
conducting all of the remaining facility security assessments and using 
a methodology that complies with ISC requirements, agencies may not 
identify the risks their facilities face or identify the 
countermeasures they could implement to mitigate those risks.
    Based on these findings, we made a total of six recommendations to 
the four land management agencies, including that:

    <bullet> BLM, the Forest Service, and the Park Service each develop 
            a plan to conduct all required facility security 
            assessments agency-wide;

    <bullet> The Park Service update its facility security assessment 
            methodology to address the consequences of specific 
            undesirable events in order to comply with requirements in 
            the ISC Standard; and

    <bullet> BLM and the Forest Service each develop facility security 
            assessment methodologies that comply with requirements in 
            the ISC Standard.

    The four land management agencies generally concurred with our 
recommendations and provided examples of actions they plan to take to 
address our recommendations, including revising policies and developing 
new tools, training, and data system modules.

    Chairwoman Haaland, Republican Leader Young, and members of the 
Subcommittee, this completes my prepared statement. I would be pleased 
to respond to any questions that you may have at this time.

                                 ______
                                 

    Ms. Haaland. Thank you very much, Ms. Fennell.
    The Chair now recognizes Ms. Katie Tubb, Senior Policy 
Analyst at the Heritage Foundation.
    Ms. Tubb, you have 5 minutes.

 STATEMENT OF KATIE TUBB, SENIOR POLICY ANALYST, THE HERITAGE 
                   FOUNDATION, WASHINGTON, DC

    Ms. Tubb. Thank you for this opportunity to speak to you 
today, and for the interest in examining Federal lands issues.
    Decision making on Federal lands has been contentious for 
many years--decades, if not longer. In some respects, that is 
not surprising, given that there is potential for conflict when 
Federal lands consume large parts of the West. This has major 
implications for states and individuals, and their ability to 
foster a promising place to live with economic diversity, 
property, and other tax revenue for services like education and 
public safety, physical space, and access to lands for a 
variety of cultural, recreational, and economic activities.
    Further, management on these lands is diverse and spread 
across multiple agencies and bureaus, governed by a complex of 
overlapping and often conflicting laws, missions, and 
regulations, which different administrations have implemented 
in drastically different ways.
    A litigation culture all but invited by broad, unclear, and 
outdated laws has led to perverse incentives. And when people 
feel that they are not being listened to, or the levers of 
power are out of reach, tensions spill over. Undoubtedly, civil 
servants are also in a difficult place navigating these laws.
    When it comes to conflict, Federal, district, and unit 
offices should ensure their staff are adequately equipped for 
their own safety. Just as important, staff should be trained to 
handle and diffuse conflict toward solutions. However, to go 
overboard is to miss the point, and Federal actions can 
wittingly or unwittingly create unnecessary tension. Federal 
actions, again, real or perceived, to slow-walk leases and 
permits, being unwilling to seek compromise, failing to be 
present and available to the community, or escalating the 
severity of charges can create or exacerbate conflict.
    Ultimately, I believe Congress needs to do a wholesale 
review of the Federal estate and the laws governing it. 
However, even in this broken system, there are examples of 
collaboration amongst conflicting interests that have yielded 
good results.
    I think those boil down to some basic principles of 
cooperative federalism, the first being that solutions are 
site- and situation-specific. Specific decisions reflect the 
unique circumstances, histories, and priorities of communities 
and land users. Americans can and do successfully pursue varied 
and competing interests with creative, nuanced compromises. 
This requires relying on people who directly benefit or are 
harmed by those decisions.
    Second, solutions rely and respect the role of private 
property owners. Rather than being irrelevant or a barrier to 
public land management solutions, private property owners can 
be great assets and, in fact, ownership is a powerful incentive 
for stewardship.
    Third, solutions empower states and communities. And while 
there are many degrees of and ways to accomplish this, 
empowering states and communities to drive decision making has 
proved effective. States and communities already share the cost 
of maintaining Federal lands, whether by the liability of no 
management, the lost opportunity of poor management, or the 
infrastructure needed to support management.
    My written testimony offers examples of how each of these 
have resolved conflict, among those the Utah Grazing 
Improvement Program; the White Mountain Apache Tribe Successful 
Forest Management Program; the Forest Service's use of its Good 
Neighbor Authority; Wyoming's exception under the Antiquities 
Act; and the Federal Lands Freedom Act proposed in the 115th 
Congress.
    I would like to draw just one example, that being the 1984 
compromise for Forest Service and BLM lands in northern 
Arizona. Within the broader, protracted national debate over 
wilderness area designations, a coalition of interests came 
together to seek resolution in a more timely fashion. I think 
it is very interesting who formed this coalition. It was a mix 
of energy companies and groups like the National Parks 
Conservation Association, Sierra Club, National Wildlife 
Federation, Local Chambers of Commerce, the Grazing Advisory 
Board, and a variety of local, state, and Federal politicians. 
The discussions resulted in an all but universally satisfying 
compromise with the Arizona Wilderness Act. The compromise 
created nine wilderness areas, including the BLM's first. It 
also allowed for uranium mining and timber production within 
painstakingly negotiated boundaries.
    The point is, coming to solutions is hard work and 
complicated work. The way forward through collaboration is 
rarely clear cut and easy with an obvious outcome. But I think 
the more Congress can encourage, agencies pursue, and states 
and private individuals initiate collaborative approaches, the 
better chances we have of reaching solutions through conflict. 
Thank you very much.

    [The prepared statement of Ms. Tubb follows:]
       Prepared Statement of Katie Tubb, The Heritage Foundation
    Thank you for the opportunity to testify before you today and for 
your interest in examining Federal lands issues. Decision making on 
Federal lands has been contentious for decades, if not longer. The 
Hammond and Bundy cases are unfortunate, more recent examples of 
conflict that escalated to the loss of one man's life and put many 
others in danger.
    In some respects, it is not surprising that there is such potential 
for conflict. While not exclusively a Western issue, Federal management 
covers vast tracts of the West. This has major implications for states 
and individuals, and their ability to foster a promising place to live 
with economic diversity; property and other tax revenue for services 
like education and public safety; physical space; and access to lands 
for a variety of cultural, recreational, and economic activities.
    Further, management of these massive and diverse lands is 
disjointed, being spread across multiple departments and bureaus 
governed by a complex of overlapping and often conflicting laws, 
missions, and regulations as well as historical uses and arrangements 
predating certain Federal laws. Different administrations have 
interpreted and implemented the same laws guiding management in 
drastically different ways to either encourage access to Federal lands 
or heavily restrict their use. Special interest groups leverage these 
complexities to pressure elected leaders and bureaucrats to enact 
policies that benefit powerful constituencies. A litigation culture all 
but invited by broad, unclear, or outdated laws has led to perverse 
incentives. Non-action by Federal agencies is rewarded not because 
bureaucrats are generally bad or incompetent, but because Federal 
employees soon learn that taking no action is safe. Delay, study, 
hearings, and re-hearings are ``acceptable'' activities. Deciding 
something may create a job-threatening political firestorm.\1\ At worst 
decisions are never reached, and at best agencies expend extensive 
resources not on management but rather to bullet proof decisions with 
reams of analysis for the inevitable legal challenge. When people feel 
they are not being listened to or the levers of power are out of reach, 
tensions spill over.
---------------------------------------------------------------------------
    \1\ Jack Spencer, ed., Environmental Conservation: Eight Principles 
of the American Conservation Ethic, The Heritage Foundation, July 27, 
2012, http://www.heritage.org/research/projects/environmental-
conservation#EightPrinciples.
---------------------------------------------------------------------------
    So, it is unsurprising that people are passionate about Federal 
lands. Conflict comes in many shapes and sizes. There of course were 
the cases of the Hammonds and Bundys which made national headline news. 
But there are dozens of other cases that, though they do not make 
national news, are no less impactful to the local communities and 
individuals. Controversial national monument designations in Utah and 
off the coasts of Massachusetts, or just last week, the issue of 
roadless area designations in Alaska, are ready examples of conflict 
over Federal lands, all the way down to the use of cabins in Ottawa 
National Forest in Michigan and eminent domain issues in Smokey 
Mountain National Park.
    When it comes to conflict, individual district and unit offices of 
the Federal land agencies should not be irresponsible and ensure their 
staff are adequately equipped for their own safety. Just as important, 
staff should be trained to handle and diffuse conflict toward 
solutions, if possible. However, to go overboard is to miss the point 
and Federal actions can wittingly or unwittingly create unnecessary 
tension. While it is popularly easy to caricature and parade the faults 
committed by private landowners in the Bundy and Hammond cases, Federal 
land managers and bureaucrats were not faultless, either. That incident 
aside, Federal actions to slow walking leases and permits, being 
unwilling to seek compromise or inflexibility to seek agreeable 
alternatives, failing to be present and available to the community, and 
escalating the severity of charges can create or exacerbate conflict. 
Management of Federal lands is a two-way street at least.
    That said, I would like to use the remainder of my testimony to 
focus on ways conflict on Federal lands has been or could be resolved. 
Ultimately, I believe Congress needs to take a wholesale review of the 
Federal estate and the morass of conflicting and overlapping laws 
governing it. However, even in this broken system there are examples of 
collaboration amongst conflicting interests that have yielded good 
results. Those successes boil down to some basic principles of 
cooperative federalism.
1. Solutions Are Site and Situation Specific
    Rather than centralized policies, site and situation specific 
decisions reflect the unique circumstances, histories, and priorities 
of communities and land users. Americans can and do successfully pursue 
varied and sometimes competing interests on Federal lands. Coming to 
creative compromises requires relying on people who will directly 
benefit from wise management decisions or be marginalized by poor ones.
    Coming to such solutions is hard, complicated work. Take for 
example the process to reach a compromise for land use plans on Forest 
Service (USFS) and Bureau of Land Management (BLM) lands in northern 
Arizona. Within the protracted national debate, study, and re-analysis 
of wilderness area designations, a coalition of interests came together 
to try to resolve land-use issues in a more timely fashion for an area 
in northern Arizona known as the Arizona Strip.

    It is perhaps worth noting that the Federal Government's inability 
to move forward in Arizona caused tension, apparently among all 
parties. According to Representative Mo Udall (D-UT):

        ``Since 1979 Arizonans who used the forests for livelihood, for 
        recreation, for scientific purposes, and for much more, have 
        labored under the uncertainties of interim management.. . . 
        This has hurt people in Arizona, causing frustration and 
        confusion. Miners are not sure where to invest their 
        exploration in development dollars. Ranchers wonder about the 
        future management of their grazing allotments. Conservationists 
        fear the loss of critical, sensitive lands in the fragile 
        Arizona environment.

        The Forest Service goes about its job without any clear 
        direction from the Congress. Lawsuits in other states threaten 
        court-imposed land management regimes that would benefit no 
        one. The current administration launches a senseless, costly 
        and resource-wasting process called RAREII [Roadless Area 
        Review and Evaluation II] to paw over the inventory again.'' 
        \2\
---------------------------------------------------------------------------
    \2\ ``Additions to the National Wilderness Preservation System,'' 
Subcommittee on Public Lands and National Parks, Committee on Interior 
and Insular Affairs, U.S. House of Representatives, September 13, 1983, 
http://www.azwater.gov/AzDWR/SurfaceWater/Adjudications/documents/
SRP_Initial_Disclosure/SRP08318%20-%20SRP08765.pdf (accessed October 
21, 2019).

    Consequently, an attempt at more timely resolution was initiated by 
a group of private companies and environmental interests. Months of 
extensive discussion began between Energy Fuels Corporation, Western 
Nuclear Corps, the Wilderness Society, National Parks Conservation 
Association, National Wildlife Federation, Sierra Club, Grazing 
Advisory Board, local chambers of commerce, and, ultimately, the BLM, 
USFS, and Arizona's Federal delegation. Discussion resulted in an all 
but universally satisfying compromise with the Arizona Wilderness 
Act.\3\
---------------------------------------------------------------------------
    \3\ Arizona Wilderness Act of 1984, H.R. 4707, 98th Congress, 2nd 
Sess.
---------------------------------------------------------------------------
    The compromise created nine wilderness areas, including the BLM's 
first designated wilderness areas. It also allowed for uranium mining 
and timber production within painstakingly negotiated boundaries. It 
represents the concept of multi-use lands enshrined in the Federal Land 
Policy and Management Act \4\ and is itself, in the words of BLM's 
Director Robert Burford, a ``unique piece of legislation'' of hard-won 
consensus among competing interests. The National Parks Conservation 
Association described the Act as an ``exciting adventure in the 
democratic process'' which it was pleased with in substance and process 
and supported ``with great enthusiasm.'' \5\ The legislation had the 
support of both Senator John McCain (R-AZ) and Representative Udall, 
long-time chairman of the House Interior Committee.
---------------------------------------------------------------------------
    \4\ Federal Lands Management and Policy Act of 1976, Sec. 102, 94th 
Congress: ``[I]t is the policy of the United States that . . . public 
lands be managed in a manner which recognizes the nation's need for 
domestic sources of minerals, food, timber, and fiber from the public 
lands.''
    \5\ ``Additions to the National Wilderness Preservation System,'' 
Subcommittee on Public Lands and National Parks, Committee on Interior 
and Insular Affairs, U.S. House of Representatives, September 13, 1983, 
http://www.azwater.gov/AzDWR/SurfaceWater/Adjudications/documents/
SRP_Initial_Disclosure/SRP08318%20-%20SRP08765.pdf (accessed October 
21, 2019).
---------------------------------------------------------------------------
    Subsequent Federal land management plans by the BLM and USFS 
reflected this compromise. Unfortunately, the Obama administration 
unilaterally rescinded this arrangement in 2009 and formally withdrew 
over 1 million acres from mining activities for 20 years in a 2012 
public land order by the Secretary of Interior.\6\
---------------------------------------------------------------------------
    \6\ Federal Register, Vol. 77, No. 11 (January 18, 2012), pp. 2563-
2566.
---------------------------------------------------------------------------
    While not always perfect, local expertise leads to successful 
environmental policy that is more responsive and better suited to 
unique landscapes. Time and again, states and communities have been 
able to come to creative, nuanced compromises that reflect their unique 
circumstances, priorities, and histories.
2. Solutions Respect the Role of Private Property Owners
    Rather than barriers to public land management solutions, private 
property owners can be great assets. In fact, ownership is a powerful 
incentive for stewardship. Property rights turn environmental resources 
into assets rather than liabilities, and markets lead to more creative 
and desirable solutions. Unfortunately, Federal approaches can 
disincentivize collaboration and partnerships with private property 
owners. Conflict often arises when property owners are seen as 
opponents or irrelevant to a solution. Current regulatory and 
management approaches often devalue private property, and Federal 
management often fails to utilize market based solutions that could 
make land and resources more profitable to the benefit of Federal 
lands.

    Take, for example, Utah's voluntary Grazing Improvement Program 
(GIP) set up in partnership with the state, Federal Government, and 
private property owners. Grazing is a deep part of Utah's heritage and 
an important part of the local economy. However, the sheer volume of 
Federal lands is itself a source of tension for Utahans. Sixty-three 
percent of Utah is owned by the Federal Government, and, consequently, 
Federal land management plans and designations acutely impact the 
livelihoods of residents. According to the Utah Farm Bureau:

        ``There are 45 million acres of rangeland suitable for 
        livestock grazing in Utah. Of that, 33 million acres or 75 
        percent is controlled by the BLM and Forest Service. The 
        Director of the BLM manages more land in Utah than the Governor 
        elected by the people of Utah. Our future in Southern Utah, in 
        most of Utah and across the American West is being dictated by 
        a distant, disconnected central government. And that distance 
        is not just based on geography.'' \7\
---------------------------------------------------------------------------
    \7\ Utah Farm Bureau, ``Monument Review, MS-1530,'' Statement of 
the Utah Farm Bureau to Secretary Ryan Zinke, U.S. Department of 
Interior, undated, https://www.utahfarmbureau.org/Article/File/
get?path=Files%2Farticle-109549%2FBears%20Ears%201.pdf (accessed 
October 21, 2019).

    For decades, government responses to environmental degradation on 
rangelands have revolved around reducing access to land and reducing 
permissible herd sizes.\8\ This naturally exacerbated frustration and 
economic hardship for ranchers, but further did not solve rangeland and 
watershed damage. As described by Utah's Department of Agriculture and 
Food, there was a ``disconnect between the regulatory regime and good 
grazing practices.'' \9\
---------------------------------------------------------------------------
    \8\ Utah Department of Agriculture and Food, ``Change in Utah 
Federally Permitted AUMs 1940-2005,'' https://ag.utah.gov/wp-content/
uploads/2019/05/History-of-AUM-Reductions.pdf (accessed October 21, 
2019). See also Utah Department of Agriculture and Food, ``GIP 
History,'' May 21, 2019, https://ag.utah.gov/farmers/conservation-
division/utah-grazing-improvement-program/gip-history/ (accessed 
October 21, 2019).
    \9\ Doug Warnock, ``Utah's Grazing Improvement Program Develops Key 
Principles,'' Capital Press, December 29, 2016, https://
www.capitalpress.com/ag_sectors/livestock/utah-s-grazing-improvement-
program-develops-key-principles/article_f7fb1059-45ab-50a0-9e94-
4bebc3a7c102. html (accessed October 21, 2019).
---------------------------------------------------------------------------
    Passed in Utah's legislature in 2006, the GIP aims to bring 
together ranching, environmental, and state and Federal Government 
interests together to apparent good effect for both ranchers and the 
environment.\10\ The GIP established local and state advisory boards to 
engage at the local, state, and Federal levels to develop and propose 
consensus recommendations for Federal lands management decisions, and 
implement rangeland projects. This involves groups like the U.S. 
Department of Agriculture, BLM, state agriculture and natural resource 
departments, Utah Farm Bureau, Nature Conservancy, Utah Cattlemen's 
Association, Grand Canyon Trust, Utah Wool Growers Association, Trout 
Unlimited, local landowners, and state universities.\11\
---------------------------------------------------------------------------
    \10\ Ashley Longmore and Troy Forrest, ``The History and Overview 
of Utah's Grazing Improvement Program,'' Rangelands, Vol. 38 No. 5 
(October 2016), https://www.sciencedirect.com/science/article/pii/
S0190052816300554?via%3Dihub (accessed October 21, 2019).
    \11\ Michele Straube and Lorien Belton, ``Collaborative Group on 
Sustainable Grazing for U.S. Forest Service Lands in Southern Utah: 
Final Report and Consensus Recommendations,'' December 2012, https://
ag.utah.gov/wp-content/uploads/2019/05/Sustainable-Grazing-for-
Southern-Utah-Forests.pdf (accessed October 21, 2019). For a BLM 
example, see Bureau of Land Management, ``BLM Seeks Public Comment on 
the Bison Fence Environment,'' U.S. Department of Interior, August 16, 
2018, https://www.blm.gov/press-release/blm-seeks-public-comment-bison-
fence-environmental-assessment (accessed October 21, 2019).
---------------------------------------------------------------------------
    Importantly, the program is proving effective from both ranching 
and environmental perspectives. Rather than overemphasizing herd size, 
Utah's approach emphasizes actively managing herds, distribution, and 
rotation to keep cattle from overusing lands and streams. Installing 
water systems, fences, and new plants have reduced soil erosion, 
improved streams and water quality, decreased the spread of invasive 
plants and species, and reduced dry underbrush that is fuel for 
wildfires. This has further benefited ranchers with healthier, more 
productive rangeland for herds.
    Under a system of property rights and rule of law, they have power 
incentive to maintain and enhance their environment.
3. Solutions Empower States and Communities
    Perhaps a variation on the themes of the first two points, 
empowering states and communities to drive decision making has proved 
effective. While there are many degrees of and ways to accomplish this, 
one good example is the experience of the White Mountain Apache Tribe.
    Management of forests on tribal lands contrasts starkly with 
neighboring Federal lands, to great environmental and economic benefit 
for the White Mountain Apache Tribe. The White Mountain Apache Tribe 
manages their own forests, mimicking the natural burn and growth cycle 
by clearing logs and brush that could become fuel for fires. Doing so 
also provides jobs for the tribe, which boasts its own logging 
industry.
    While they work with the Department of the Interior and Forest 
Service to develop land-management plans, critically, the tribal 
council is in the driver's seat. According to Robert Lacapa, former 
forest manager with the Bureau of Indian Affairs for the White Mountain 
Apache Tribe: ``Our constituency is on the reservation, and we have 
about 16,000 tribal members. Nobody from New York. Nobody from 
California. Our primary interest group is right here.'' \12\ This 
protection allows the Tribe to complete more forest treatments more 
quickly according to the interests of the tribe. It has paid off--the 
damage and intensity of forest fires on tribal lands has been markedly 
less than on neighboring Federal lands.
---------------------------------------------------------------------------
    \12\ Valerie Richardson, ``Apaches Stave Off Wildfires with Timber 
Industry, Active Forest Management,'' Washington Times, September 2, 
2018, https://www.washingtontimes.com/news/2018/sep/2/apache-
forest_management-fights-wildfires/ (accessed October 21, 2019).

    Reflecting on the stark contrast between tribal and federally 
---------------------------------------------------------------------------
managed lands, Lacapa stated:

        ``Unfortunately for the Forest Service, they can get somebody 
        back East or back West that can put a stop to any of their 
        [National Environmental Policy Act requirements]. The public 
        has really limited their effectiveness in using prescribed 
        burns and harvesting as tools. And that's really bad for us. 
        It's not just about what we can do here locally [on the 
        reservation], but on a landscape basis.'' \13\
---------------------------------------------------------------------------
    \13\ Ibid.

    The simple truth is, the White Mountain Apache Tribe has powerful 
incentives to be good stewards of their environment as part of their 
livelihoods, economic opportunity, culture, recreation, and other uses 
of the land around them. Their community directly benefits from good 
management decisions and is hurt by poor ones. Fortunately, their 
unique situation allows them to plan as a community and utilize local 
---------------------------------------------------------------------------
expertise and priorities.

    There are other small-scale examples worth considering to empower 
states and communities.

    <bullet> Under its Good Neighbor Authority, the Forest Service has 
            contracted with 32 states to complete management work on 
            national forests.\14\
---------------------------------------------------------------------------
    \14\ Jason Hayes, ``Conflict to Cooperation: Collaborative 
Management of Federal Lands in Michigan,'' Property and Environment 
Research Center and the Mackinac Center, October 30, 2018, https://
www.perc.org/2018/10/30/conflict-to-cooperation-collaborative-
management-of-federal-lands-in-michigan/ (accessed October 21, 2019). 
See also U.S. Forest Service, ``Good Neighbor Authority,'' U.S. 
Department of Agriculture, https://www.fs.fed.us/managing-land/farm-
bill/gna (accessed October 21, 2019).

    <bullet> The EPA and Nuclear Regulatory Commission have partnered 
            with many states, which under formal agreements may assume 
            certain regulatory authority under the Clean Water Act and 
---------------------------------------------------------------------------
            Atomic Energy Act, respectively.

    <bullet> The Antiquities Act grants the state of Wyoming an 
            exemption from unilateral presidential action by requiring 
            congressional approval for any monument designation.

    <bullet> The South Nevada Public Land Management Act of 1998 made 
            68,000 acres of Federal land near Las Vegas available for 
            purchase and generated proceeds for Nevada's General 
            Education Fund, the Southern Nevada Water Authority, and 
            Federal conservation and maintenance projects.\15\
---------------------------------------------------------------------------
    \15\ Bureau of Land Management, ``Southern Nevada Public Land 
Management Act (SNPLMA),'' U.S. Department of Interior, https://
www.blm.gov/sites/blm.gov/files/documents/files/SNPLMA_ 
New%20About%20Page.pdf (accessed October 21, 2019).

    <bullet> The Federal Lands Freedom Act proposed by Senator James 
            Inhofe (R-OK) in the 115th Congress, though not passed, 
            would have allowed states to submit their own regulatory 
            programs for energy permitting and development on Federal 
---------------------------------------------------------------------------
            lands in lieu of Federal requirements.

    There does not seem to be a sustained drive in Congress to expand 
the role of states on Federal land-management decisions. However, 
states can utilize local creativity and accountability without the 
added baggage of national political battles and Federal regulatory 
processes. States already share the cost of the maintenance of Federal 
lands, whether by the liability of no management, the lost opportunity 
of poor management, or the infrastructure needed to support development 
of resources.
    The way forward through collaboration is rarely clear cut and easy 
with an obvious outcome. If it were, we would not be having discussions 
like this today. Shifting more control from Washington to those with 
direct knowledge of the land in question and a clear stake in the 
outcome of decisions would be a step in the right direction. But the 
more Congress can encourage, agencies pursue, and states and private 
individuals initiate collaborative approaches, the better the chances 
of reaching solutions through conflict--solutions that offer better, 
nuanced, and creative approaches to benefit people and the environment.

                                 ______
                                 

    Ms. Haaland. Thank you, Ms. Tubb. Thank you for that 
valuable testimony. The Chair will now recognize Members for 
their questions. Under Committee Rule 3(d), each Member will be 
recognized for 5 minutes. I will start with Mr. Tonko.
    You have 5 minutes.
    Mr. Tonko. Thank you, Chair Haaland, and thank you for 
bringing this hearing together. And thank you to our witnesses 
for your input.
    The unfair and negative treatment of Federal employees 
harms our Nation. It threatens the loss of institutional 
knowledge, and undermines the performance of the agency in 
service of the American people. Elected officials and others in 
positions of power and public trust should not be able to use 
these employees as political pawns. Even the way we talk about 
them can have a personally dangerous and professionally 
devastating consequence on these individuals, to say nothing of 
undermining the serious and important work that they do.
    No one, no matter where they work, should feel like they 
are being held hostage in their own home, or have shots fired 
over their heads while working. Surely, we can manage at least 
this minimum standard of humanity for our own Federal 
employees.
    In this divisive time, our words matter more than ever. 
Public land managers are already being harassed and sometimes 
attacked, and we have a duty to rise above this toxic political 
climate in our words and in our actions.
    My first questions are to Ms. Fennell. Your report says 
Federal land management experts experience threats and 
intimidation, including being monitored at home and harassed at 
the grocery store as part of their daily lives. It is so common 
that some don't even report it to their colleagues any more. 
That sounds like a more dangerous reaction than a difference of 
opinion about land management.
    Could you tell us more, please, about some of the 
experiences that have been reported?
    Ms. Fennell. Some employees have not reported various 
incidents because they informed us that, under certain 
circumstances, they may consider that just a part of their 
regular job duties. Some, however, indicated that it depends on 
the particular circumstances, so what may appear to be a threat 
for one employee may not be perceived as that for another. 
There is judgment that is involved, in terms of whether they 
come forward, in terms of reporting potential threats.
    Mr. Tonko. Thank you. And in your testimony you briefly 
mentioned that many employees were traumatized by the Malheur 
takeover, with some never returning to work, or transferred to 
other agency field units. Can you briefly elaborate on the 
impact that threats and literal assaults on Federal employees 
have had on retention and institutional knowledge at our 
Federal land management agencies?
    Ms. Fennell. Well, some of the employees informed us that 
that was indeed the situation from the Malheur experience, that 
they were traumatized by the event and chose to ask for a 
transfer, or not return immediately to work. That was an 
illustrative example of the situation that occurred there.
    But we did not hear consistent examples throughout, in 
terms of how many transfers there had been requested. So, we 
don't have specific information to respond to that question.
    Mr. Tonko. Do you expect that you will get additional 
information?
    Ms. Fennell. It was not part of our particular scope for 
our review, but that is something that we can follow up with 
the agencies and get back to your staff.
    Mr. Tonko. OK, that is great. Thank you.
    And, Mr. Nichols, how has Harney County changed since the 
takeover? And what are some of the social consequences you have 
seen resulting from this kind of violence perpetrated in the 
name of taking back the land?
    Mr. Nichols. Harney County was elated it was over with. 
Things haven't changed dramatically within the community, other 
than there is division to some degree where there wasn't before 
over several things.
    But, basically, the community got back on its feet, 
rolling, and doing what we have always done, and that is 
working together and trying to survive all of the things that 
we have to survive in our community. It has been a very 
positive reaction to the whole situation, and we are moving 
ahead, moving forward.
    Mr. Tonko. Thank you. Professor Walker, you spent a great 
deal of time interviewing local residents since the Malheur 
takeover. What kind of long-term social damage did this inflict 
upon them?
    Dr. Walker. As Commissioner Nichols said, I think, 
generally, the community has bounced back. It is still a 
community that works very well together.
    I think there has been a lot of long-term damage to 
specific individual relationships. There are people who still 
tell me that they won't patronize businesses that belong to 
people who they perceive to be on the other side of the issue. 
I think there is a general sense of wariness, of suspicion 
about others in the community that there was not before the 
Malheur occupation.
    On the other side, I would actually say that, in my 
observation, if anything, the damage to some of those 
relationships, some individual relationships, has actually been 
countered by a reinforcement of a commitment to working 
together through the collaborative model.
    I attended the very first--to my knowledge, the very 
first--collaborative meeting in an initiative of the High 
Desert Partnership known as the Harney County Restoration 
Collaborative, the Forest Collaborative, in March 2016, right 
after the occupation ended. And the facilitator of that group 
told me that the attendance at that particular meeting was 
higher than he had ever seen before.
    So, it is a mixed bag. There is some damage, but there has 
also been a reaffirmed commitment to the collaborative model.
    Mr. Tonko. I thank you. I have well exceeded my time, and I 
apologize, Madam Chair. I yield back.
    Ms. Haaland. Thank you, Mr. Tonko. The Chair recognizes 
Ranking Member Curtis.
    Mr. Curtis. Thank you, Madam Chair.
    Dr. Walker, on page 24 of the GAO report it reads, ``Agency 
field officials said that building relationships with the 
public, both visitors and local citizens, can help keep their 
employees safe by cultivating trust and reducing potential 
tension.'' After hearing your testimony it sounds like that 
could have been written based on a case study in your area. 
Would you agree with that?
    Dr. Walker. I am sorry, can you say that again?
    Mr. Curtis. The report says that the best way to keep the 
Federal employees safe is to build relationships of trust. And 
it sounds to me like----
    Dr. Walker. Yes, I would generally agree with that. I think 
that, really, you should be asking Mr. Nichols.
    Mr. Curtis. OK. Mr. Nichols, please?
    Dr. Walker. Mr. Nichols ranches in that community, but my 
quick understanding is that relationships in that community 
prior to the establishment of the collaborative culture that 
Commissioner Nichols refers to was quite bad. And since then 
that trust has been built in ways that really served the 
community well under pressure. Yes.
    Mr. Nichols. I would agree.
    Mr. Curtis. Yes. And maybe to both of you, as the world 
looks back on your community and this incident--this seems to 
me like a rhetorical question, but maybe it is not. Would you 
both rather be remembered for the relationship-building with 
the Federal employees or this one incident?
    Mr. Nichols. The relationship with the employees or what, 
sir?
    Mr. Curtis. My point is, and my fear is, that the topic of 
this hearing is focusing on all that is bad. And what I am 
hearing from your community is there is a lot that is good.
    And the question is, I am assuming you would rather be 
remembered for the relationship building that you all have done 
and not this one incident.
    Mr. Nichols. Yes, sir. Like I referred to earlier, the 
Bundy occupation is over and done. We have moved on. Yes, there 
are differences of opinion about things. There always is, there 
always will be. But there isn't the hostility and the 
aggression toward one another or anyone else that was evident 
during that time.
    Basically, it was total anarchy in our community for a 
month, 6 weeks. That is not a good place to be, not a good 
place at all.
    Mr. Curtis. It is my sense that it is also not a reflection 
on who you are as a community.
    Mr. Nichols. No.
    Mr. Curtis. Much more on the relationship-building side.
    Mr. Nichols. It is.
    Mr. Curtis. I think all of you have spoken today about the 
importance of building relationships to solve problems without 
creating more divisiveness.
    I was very fortunate to be part of an Emery County public 
lands package that was signed into law this year. And that, to 
me, was a perfect example of how locals are working together 
with the Federal agencies to find harmony and peace in these 
difficult public land conflicts.
    My county worked daily with local BLM officials. And 
because of that they came to better decisions. And when I go 
down in that county I hear great things about the local 
representation from BLM down there, and I feel like it was a 
win-win.
    Ms. Tubb, I am curious. The title of today's hearing 
alleges a widespread culture of anti-government attacks and 
abuse. Let me just read that again, ``a widespread culture of 
anti-government attacks and abuse.''
    First of all, do you agree with this characterization of 
the epidemic level threat of an anti-government activist?
    Ms. Tubb. No, I don't. And I think it is not characteristic 
to label all conflict as anti-government. As I think we have 
said across the panel, these are passionate issues because they 
affect people's lives. That doesn't mean they are anti-
government.
    Mr. Curtis. Yes. Thank you. Your testimony, you argue that 
it is important for Federal land management agencies not to 
create unnecessary tension. What are some ways agencies can 
diffuse tension and encourage better relationships?
    Ms. Tubb. I think it is absolutely the relationship 
building and seeking compromise. Granted, I think land managers 
have a very difficult position to play because of the 
underlying law and regulation. Nevertheless, I think there are 
enough tools in there to create a give-and-take amongst land 
managers and the people affected by their decisions.
    Mr. Curtis. We have heard--and I want to endorse that we 
need to keep our Federal employees safe, and I wouldn't want 
anybody to think that I felt otherwise, but I would like to 
take advantage of this opportunity to share my concern that it 
doesn't always feel like this is a common concern for all 
Federal employees. And in law enforcement, even local law 
enforcement, I would hate to compare the statistics that we 
have heard today for Federal law enforcement threats versus 
local law enforcement. And I believe the number of lives lost 
in local law enforcement would far exceed this.
    So, I would like to just end my time with a plea for care 
and concern for all Federal employees, all law enforcement. We 
have not even talked about those down at the border. I have 
been down there, I know they are receiving threats on a 
consistent basis, and I want to make sure that we keep all of 
them in mind as we work to make their environment safer.
    Thank you, Madam Chair. I yield my time.
    Ms. Haaland. Thank you, Mr. Curtis. The Chair recognizes 
Mr. Lowenthal for 5 minutes.
    Dr. Lowenthal. Thank you, Madam Chair. And, as I say, thank 
you to all the panelists. I want to start with Ms. Fennell.
    In your testimony, you stated, as I read, that at the close 
of Fiscal Year 2018, the number of field law enforcement 
officers at each of the four land management agencies has 
declined since Fiscal Year 2013, and that decline makes it more 
difficult to protect employees. Can you first elaborate on the 
impact that these declines have had on employee safety?
    Ms. Fennell. It is one of a number of factors that have 
impacted the Federal Land Management Agency's efforts to 
protect Federal employees. The law enforcement officer decline 
ranged from 7 percent for the Park Service to 22 percent for 
the Forest Service from 2013 to 2018. The officers have a vast 
amount of land in which to survey, as well, so the number of 
law enforcement officers per millions of acres of the land is a 
fairly small ratio.
    There are various efforts that are underway to try to 
address that particular issue we heard about from the Federal 
land management agencies, including the spirit of sharing law 
enforcement officers to address various events that may be 
occurring, just as one way to address the decline in the 
numbers of law enforcement officers in the field.
    Dr. Lowenthal. Can you help me understand why there was the 
decline in law--was it just fiscal? Why was there a decline in 
law enforcement from 2013? It was not a time of great 
reductions in the U.S. economy. In fact, we were beginning the 
recovery by then.
    Ms. Fennell. It was not the focus of our line of 
questioning, because we were looking at the various factors 
that can impact their ability to protect employees. However, 
what law enforcement officers had indicated is that there had 
been budget and resource constraints contributing to the 
decline.
    Dr. Lowenthal. Mr. Nichols, you know that President Trump 
pardoned the Hammond family in 2018. You know that.
    Mr. Nichols. I know that.
    Dr. Lowenthal. Yes. I am just asking you. Can you tell me 
how that family is perceived in Harney County?
    Mr. Nichols. Well, sir, you are asking me my perception? My 
perception is there are two different ways of looking at them. 
They are outstanding people, and they are good community 
members. But, apparently, something was out of sync with the 
Department of Justice, and that course of action took place. 
Other than that, I don't believe it is my place to be answering 
that type of a question.
    Dr. Lowenthal. I was just asking what the community felt 
about this, or perceived of it, not about--was it much of a 
reaction?
    You indicated your reaction, in that you thought they were 
excellent people. I am just wondering whether there was much 
community reaction when this took place.
    Mr. Nichols. OK. The community reaction--the community is 
made up of people that are different in their opinions. It went 
a variety of different ways.
    Dr. Lowenthal. I am going to yield back. Thank you, Madam 
Chair.
    Ms. Haaland. Thank you, Mr. Lowenthal. The Chair recognizes 
Mr. Grijalva.
    Mr. Grijalva. Thank you very much, Madam Chair. Ms. 
Fennell, in preparing the report, how often did land managers 
describe the public misconceptions about land use law, or what 
Federal agencies really do, as you were doing your report?
    Ms. Fennell. In terms of the Federal land management 
agencies and their efforts to protect their employees, they 
noted a number of different factors that can impact their 
ability to protect their employees, including the need to 
ensure that they have opportunities to inform the public and 
visitors about the land that they are managing, and any 
particular incidents that might arise.
    So, it was part of an opportunity for dialogue with the 
public who would be visiting their lands that that topic would 
arise.
    Mr. Grijalva. And a little bit of a followup, Professor 
Walker. You are a scholar on land use and political history 
behind land use laws. Could you explain a bit more about the 
misrepresentations of the Constitution that the anti-public 
land, anti-government activists rely on and, more pointedly, 
how courts have ruled on this issue throughout our history?
    Dr. Walker. I am sorry, sir, I couldn't quite follow the 
question.
    Mr. Grijalva. OK. The misrepresentations of the 
Constitution that a lot of the anti-government, anti-public 
land activists on this issue rely on, and how the courts have 
ruled on unconstitutional issues regarding public land, in 
particular.
    Dr. Walker. How did the misrepresentation of the 
Constitution----
    Mr. Grijalva. Yes.
    Dr. Walker. I actually think that is a very important 
question. The militants of the Malheur Refuge have a very 
idiosyncratic interpretation of the Constitution, to put it 
mildly. Their interpretation is that the Federal Government has 
no jurisdiction over land or, really, over almost any other 
issues outside of Washington, DC.
    And my belief is that that has given a lot of sense of 
legitimacy to a broader anti-government movement out there. And 
it is expressed in particular through social media, where 
people seem to express opinions that anti-government 
activities, political activities, up to and including violence, 
is justified because the government has overstepped its 
constitutional authority.
    That constitutional interpretation is not supported by any 
legal scholars or historians or the U.S. Supreme Court. But 
when the militants spread that kind of mythology, it gives 
legitimacy to the anti-government movements, including violent 
ones.
    Mr. Grijalva. I appreciate that, and I appreciate the Chair 
holding this hearing, because it is about the health and safety 
of the agency employees, the land management, and I think it 
is--let's not minimize what happened in Oregon. And it happens 
in Arizona, that these folks, public servants, do come under a 
great deal of not only political, but personal attacks, 
threats, harassment, and that their well-being should be a 
priority. And this hearing is a step in that direction.
    You know how things get misrepresented, let's take one 
example that was mentioned. The Arizona Wilderness Act was 
important to the state of Arizona. The important thing to note 
here, it was a wilderness bill and not a resource conservation 
bill. So, to equate it with anything else that is going on, I 
think, is a mistake. The Act did not consider threats to clean 
water. It did not consider how to protect the Colorado River 
watershed. It did not consider the impacts of uranium mining, 
which is key to the future discussion.
    The majority of the lands considered in the Grand Canyon 
mineral withdrawal under Obama were never even reviewed during 
the drafting of the wilderness bill. And staffers who helped 
draft the Wilderness Act have testified on record that 
conflating their bill with the withdrawal is simply incorrect. 
Yet, somehow we hear these arguments making this false 
comparison between the Arizona Wilderness Act and the mineral 
withdrawal.
    I don't see how any of this, that line of thinking, 
justifies extremist attacks on Federal employees. It is 
insulting to, I think, Federal land managers who get harassed 
in the supermarket, followed home, in their cars, get graffiti 
painted on their houses, get attacked at work, to be told that 
the Arizona Wilderness Act is just too much for reasonable 
people to handle.
    I think we can make bipartisan progress on this, but we are 
here because anti-government rhetoric de-humanizes government 
employees, period. And those employees are being threatened and 
harassed because they are doing their jobs, and we need to 
discuss how we improve their living and working conditions as 
we speak, and what protections we extend to them.
    We are not here, I don't think, with any misinformation. I 
think the GAO report is pretty clear.
    And I think we have an obligation to do something about it, 
Madam Chair, and I yield back.
    Ms. Haaland. Thank you, Mr. Grijalva. I would recognize 
myself for 5 minutes.
    Professor Walker, you spent time with the Bundy militia at 
Malheur National Wildlife Refuge in 2016. Did the views they 
shared with you sound anything like what you have heard 
elsewhere?
    In your opinion, was the militia expressing commonly held 
sentiments about how the American people want their public 
lands managed?
    Dr. Walker. Commonly held opinions in Harney County, or 
generally?
    Ms. Haaland. Really, anywhere that you have been.
    Dr. Walker. Yes.
    Ms. Haaland. Yes.
    Dr. Walker. The short answer is no. This is a very small 
community of anti-government activists. That particular group 
that is centered on the Bundy family is really a very small 
group of individuals.
    But what I am concerned about is that they give a sense of 
legitimacy to wider-spread anti-government groups.
    What happened at the Malheur National Wildlife Refuge was 
that the Bundys came to the wildlife refuge, and they began 
from a particular ideological perspective having to do with 
religious interpretations of the Constitution. But what they 
were advocating for was, essentially, an overthrow of the 
Federal Government, a replacement of the existing Federal 
Government.
    I asked the leader of the group directly whether he was 
really advocating for an overthrow or a replacement of the 
existing Federal Government. And he said yes. They made that 
message very clear.
    And other groups who have also advocated for the 
replacement of the existing Federal Government heard that 
message, and they heard the message that the Federal Government 
is broken, it is broken beyond repair, it needs to be replaced, 
and it is the duty of patriots through armed force to re-
establish constitutional government.
    My concern is that some of those groups outside--you know, 
this is nationwide. Some of those groups have latched on to the 
Bundy family as giving a feeling, an impression, an image of 
legitimacy to their movement. Their movement, to a large 
degree, has a history tied to racism, xenophobia, anti-
immigrant policy, and those sorts of ideologies. And the Bundy 
family has given a sort of more appealing public face to those 
movements. And in that sense I think that, even though their 
size as a group is very small, they have given legitimacy to 
wider-spread movements. That is my concern.
    Ms. Haaland. Thank you for that answer.
    Mr. Nichols, in your testimony you stated that Harney 
County is almost like a poster child for collaborative 
approaches. I was wondering if you could briefly explain how 
Harney County residents worked with Federal land managers to 
collectively solve problems, rather than arguing, getting 
frustrated, and taking it out on Federal land managers.
    Do you have any suggestions of ways this Committee can 
encourage the use of approaches like this more widely?
    Mr. Nichols. Yes, I do. We have proved over and over in 
several different cases that sitting down and talking things 
through with everyone that has a vested interest in an issue is 
beneficial to the cause, beneficial to the result, the 
community, and especially the Federal land agencies involved.
    Over the course of years, things have changed dramatically 
in Harney County. We never were ``anti-government,'' but there 
have been and there still are things that need to be discussed 
and looked at. And that goes everywhere.
    Like I said, all across America. During the occupation, I 
got calls, literally, from Maine to California. And no matter 
how small the Federal land mass was in a state, there were 
still issues with it. That is not to say it is all bad, it 
isn't something that can't be overcome, but, again, the people 
need to be listened to and that is quite a broad question.
    You people are listening today. We appreciate that. But the 
time needs to be spent like we do in a collaborative process. 
It takes a long, long time to get to truly know the other 
people, their ideas, and their values. And what we have come to 
learn is everybody's values are about the same thing. It is 
just how you come to the end results that are different.
    And I can't express enough how we need to start 
communicating people to people, not an idea nor an agenda nor 
an organizational affiliation, but people to people. And until 
that happens--we all want protection of our Federal employees. 
That is paramount to them doing their job.
    But that is not looking at the cause of the problem. The 
cause of the problem is something going on in our society. 
Protection is necessary, but, quite honestly, we shouldn't have 
to be protecting our Federal employees. That should be 
something ingrained in the people themselves. It is a societal 
problem. It is a lack of communication.
    And, again, things aren't as horrific in the western United 
States as some of the things I have heard today are. There are 
places, undoubtedly.
    My son works for the Federal Government. He has for 16, 17 
years. Where he works right now, he loves it. And the people 
that they are serving love the services that they provide. It 
is basically a recreational type of a service within a forest 
in central Oregon. Where the rub comes in, quite often, as in 
the land masses, is that people are trying to make a living. 
They are paying taxes, they are raising children. Generational. 
They are taking care of the land. And there is always a threat 
of something coming down the pike and disturbing that. And, 
again, it isn't an anti-government, it is a fact of frustration 
and wondering what the future holds.
    Ms. Haaland. Thank you very much. Thank you for your 
insight. It has been very helpful today.
    Do you have any other questions?
    I thank the witnesses for their valuable testimony and the 
Members for their questions.
    The members of the Committee may have some additional 
questions for the witnesses, and we will ask you to respond to 
these in writing.
    Under Committee Rule 3(o), members of the Committee must 
submit witness questions within 3 business days following the 
hearing, and the hearing record will be open for 10 business 
days for these responses.
    Again, we are very appreciative that you all took the time 
to come here. Thank you so very much.
    If there is no further business, without objection, the 
Committee stands adjourned.

    [Whereupon, at 3:01 p.m., the Subcommittee was adjourned.]

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

Submission for the Record by Rep. Haaland

  --  PowerPoint Presentation on Examples of Anti-Public Lands 
            Extremism Rhetoric

                                 [all]
</pre></body></html>
